o
cn

No.

i;

£o ■# ^ 1.

IN THE SUPREME COURT OF THE UNITED STATES

filed
JUN 1 6 2021

ALEKSYS LOMELI-GARCIA, ET AL, PETITIONERS
VS.
DAVID SHINN, RESPONDENT

ON A PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

KOCaV)ST1^202I

Aleksys Lomeli Garcia, # 273617
In Propria Persona
Arizona State Prison
Safford Complex, Tonto Unit
896 South Cook Road
Safford, Arizona 85546

RULE 10! QUESTIONS FOR CERT-!
Aleksys’ requests for a C.O.A. were denied by both the District Court and by the En Banc Ninth Circuit. This
Petition for Certiorari timely follows and raises the following grave 2244(c) Suspension Clause and Herrera, infra,
questions.
(1). Did the concealed 28 U.S.C. 2244(c) facts cause this Court to unwittingly Suspend the Writ of Habeas
Corpus for all Ariz. indigent prisoners when it decided Gassy, infra, in 3996, and did those factual omissions
equate to fraudulent material representationsjwhich would justify this Court's rare exercise of its inherent powers
to remedy frauds that were perpetrated upon the Court by a Party, Chambers, 50i U.S., Ry 44, Z*44(A)(£(£),
(2). Could reasonable Judges debate, Slack, infra, whether or not this 1996 Court’s directions to violate the
Suspension Clause. Were the root cause that enabled Ariz. in 1997, to Suspend over 10,000 indigent prisoners’
rights to file for the Great Writ? While further debating whether or not the 2020 lower courts were simply
following this Court s Suspension Clause violation directions and intentions; when they likewise errored by
Suspending this Court's Whitmore, infra, "Next Friend" and 2nd Circuit Court Preiser, infra, class action filing
rights for indigents? Assuring that the indigents could have no method to properly file for the Great Writ of Habeas
Corpus on their own or by another next friend person as this 1996 Casey Court gave the appearance of intending?
(3). Could reasonable judges debate the lower courts made-up 28 USC 2244(d)(1)(B) legal standard which
requires proof of the indigents efforts to overcome the State's conceded unconstitutional obstacle to filing. Their
made-up Schlup and Perkins, infra, legal standards which require the same proof, and their new 2244(d)(1)(D)
legal standard which conflicts with 10th Circuit law by requiring indigents to timely discover a claims Supreme
Court legal basis even when the prison has intentionally made that legal basis and its material facts "unavailable"
to the indigent, to forbid indigents from complying with their 2244(d)(1) filing duties?
(4) Could reasonable Judges debate, Slack, infra, the lower Courts decisions to accept all Aleksys' Suspension
Clause facts, which proved this Court and Ariz. had forbid him from timely filing for the Writ. Further accepting
his facts that this Court and Ariz. made the Supreme Court legal basis and material facts for his 4 grounds
”un available" to Aleksys so he could not file for the Writ. Then failing to apply this Court's unavailable claims,
Carrier principle, or Holland, equitable tolling principles, to this uncontested and accepted factual pattern, under
their 28 U.S.C. 2244(d)(l)(B)(D) constructions?

(5). Could reasonable Judges debate, Slack, infra, the lower Courts decision to rely upon unsworn state record
facts which both Parties agreed are false facts. Rather then the material under oath new facts, which both Parties
agreed were true and had corrected the false record facts. As being error when deciding a scientifically validated
Herrera, infra, and Perkins, infra, Due Process and freestanding claim of substantive innocence?

ti

TABLE OF CONTENTS
RULE 10 QUESTIONS FOR CERT.'.

P-i

TABLE OF CONTENTS.

p.»l

TABLE OF ACCOMPANIED APPENDICES.

p.N

TABLE OF CITATIONS.

p.V,

LOWER COURT DECISIONS.

p. 1

JURISDICTIONAL STATEMENT.

p. 1

SUSPENSION CLAUSE QUOTE

P-l

I. FACTUAL STATEMENT OF CASE:

p.i

A. Concealed 2244(c) Suspension Clause Facts:

P-2

B. Innocence And Habeas Suspension Case History:

f4

C. Federal Court History Ignores All Material Facts:

P-&

1. Discovery Of Previously Unavailable Claims:

p.8

2. Federal Habeas, Mandamus, and COA History:

pAX

II. COMPELLING RULEflO REASONS TO INTERVENE:

p.t7

A. Casey Directs Ariz. To Suspend Writ Of Habeas Corpus:

p.n

B. Ariz. D.O. 902 Forbids Habeas Filings By Indigents:

p.2A

C. Lower Courts Suspend 2242 Next Friend Filing Right:

P.14

D.

Cco.'rX^ FcA To Kpp\y

Co.v'v'xt.v

p.2.7

NWA<<rUp <SY<\v\A<xM'As Pv^oYslcV'VW\V$l <bwsp(UYvs^ov\

El Made-Up 2244(d)(1)(B) Standards Protect Suspension:

?X%

P-M

F. Conflicting 2244(d)(1)(D) Standards Protect Suspension:

p.31

Q. Misapplied "Holland" And "Perkins" Tolling Standards:

p.33

1. Holland Standard Is Obviously Met:

P .35

2. Perkins Standard Is Obviously Met:

p.35

W

TABLE OF ACCOMPANYING APPENDICES
App. #1---- 10-18-19 Order Suspending 28 USC 2242 right
App. #2---- CA9 Mandamus orders, declining to restore right
App. #3—-3-27-20 R and R, suggesting dismissal of 2254
App. #4---- 5-18-20 Judgment dismissing 2254
App. #5---- CA9 3-21-21, 2-10-21, 11-23-20 orders denying COA
App. #6---- Aleksys Objections to Doc. #23-24, R and R
App. #7'

•AZ. Admits D.O. 902 hinders timely habeas filings

App. #8

•Motion To Supp. Ground. 4, W/Herrera, Exh. F

App. #9A—CA9 Pet. For Mandamus Rehr’ En Banc, App./table
#9B—CA9 Motion For 2242 Mandamus Hrg. En Banc
#9C—CA9 Pet. For Writ Of Mandamus To Restore rights
App #10A~CA9 Supp. Authority, Motion For COA En Banc
#10B—CA9 Motion for COA
App. #11—Aleksys swom/true substance use patient history
App. #12—902 Paralegal admits can't help W/filing mandate
App. #13—28 U.S.C.2254 Court Form and Memorandum
App. #14—9-30-19 Supp. Authority, Class Relief Notice
App. #15—9-26-19 Order for Ariz to Answer 2254 Grounds
App. #16—Garcia family swears can't afford 'Bounds Tools'
App. #17—Ariz. A.G. 2254 Avery claim disinformation

IV

TABLE OF CITATIONS
A. SUPREME COURT CASES
Brecht v. Abrahamson, 507 U.S. 619 (1993).

p. 13

Whitmore v. Arkansas, 495 U.S. 149 (1990).

p. i, 13

Johnson v. Avery, 373 U.S. 483 (1969).

P- 12

Ex Parte Bain, 121 U.S. 1 (1887).

p. 12

Anders v. Calif., 386 U.S. 738 (1967).

p. 12

Murray v. Carrier, 477 U.S. 478 (1986).

p. i, .27

Lewis v. Casey, 514 U.S. 1126 (1995).

p.2

Lewis'v. Casey, 518 U.S. 343 (1996).

p.Z

Herrera v. Collins, 113 S.Ct. 853 (1992).

P-i3

Lafler v. Cooper, 132 S.Ct. 1376 (2013).

p. 13

Schlup v. Delo, 513 U.S. 298 (1995).

p. i,13

Holland v. Florida, 560 U.S. 631 (2010).

p. i,33

Bowen v. Johnston, 306 U.S. 19 (1936).

p. 19

Crane v. Kentucky, 106 S.Ct. 2142 (1986).

P- 13

Hill v. Lockhart, 474 U.S. 52 (1985).

p. 13

Slack v. McDaniel, 529 U.S. 473 (2000).

p. i,l

Chambers v. Nasco Inc., 501 U.S. 32 (1991).

p. i, 1

Fay v. Noia, 372 U.S. 391 (1963).

P-31

Apprendi v. N.J., 120 S.Ct. 2348, n. 10 ().

p. 12

Ake v. Oklahoma, 470 U.S. 68 (1985).

p. 13

In Re Oliver, 333 U.S. 257 (19482000).

p. 12

McQuiggin v. Perkins, 569 U.S. 383 (2013).

p. i, 33

Panetti v. Quarterman, 551 U.S. 930 (2007).

p. 30

Reedv. Ross, 468 U.S. 1 (1984).

p. 27

Martinez v. Ryan, 132 S.Ct. 1309 (2012).

p. 19
V

Bounds v. Smith, 430 U.S. 817 (1977).

P-3

Callanan v. U.S. 364 U.S. 587 (1961).

p. 30

Blakley v. Washington, 542 U.S. 296 (2004).

p. 30

Rhines v. Weber, 544 U.S. 269 (2005).

p. 12

Strickland v. Washington, 466 U.S. 668 (1984).

p. 13

Graham v. Weeks, 138 U.S. 461 (1891).

p. 12

Wright v. West, 505 U.S. 277 (1992).

p. 12

B. FEDERAL COURT CASES
Bryant v. Ariz. Atty. Gen., 499 F.3d 1056 (9th Cir. 2007).

p. 30

Johnson v. Avery, 252 F. Supp. 783 (1966).

p. 13

Bland v. Calif. Dept, of Corr., 20 F.3d 1469.(9th Cir. 1994).

p. 32

Lewis v. Casey, 43 F.3d 1261 (9th Cir. 1994).

p.2

Easterwood v. Champion, 213 F.3d 1321 (10th Cir. 2010).

p. 32

Souliotes v. Evans, 622 F.3d 1173 (9th Cir. 2010).

p. 32

Souliotes v. Evans, 654F.3d 902 (9th Cir. 2011).

p. 32

Rasberry v. Garcia, 448 F.3d 1150 (9th Cir. 2006).

p. 30

Casey v. Lewis, 834 F. Supp. 1553 (Ariz. 1992).

p.2

Gautt v. Lewis, 489 F.3d 993 (9th Cir. 2007).

p. 12

Mena v. Long, 813 F.3d 907 (9th Cir. 2016).

p. 12

Gunn v. Newsome, 881 F.2d 949 (11th Cir. 1989)(En Banc)

p. 29

Gilmore v. People of Calif, 220 F.3d 987 (9th Cir. 2000).

p. 22

U.S. v. Preiser, 506F.2d 1113 (2nd Cir. 1974), Cert. dnd. 95 S.Ct. 1587(1975)

P-tf

Jules v. Savage, 512 F.2d 881 (5th Cir. 1975).

p. 13

Mutabv. Schiro, CV-07-1415-PHX-DGC.

p. 30

Carringerv. Stewart, 132F.3d463 (9th Cir. 1997).

p. 13

Harris v. U.S, 149 F.3d 1304 (11th Cir. 1998).

p. 13

Harris v. Vasquez, 913 F.2d 606 (9th Cir. 1990).

p. 13
Vi

E. STATE COURT STATUTES, RULES, POLICY, COMMON LAW

A.R.S. 13-201.

P-9

A.R.S. 13-502.

p. 9

A.R.S. 13-711.

p. 5

A.R.S. 13-712.

P-5

A.R.S. 13-4232 (eff. 1989).

P-2

A.R.S. 13-4232 (eff. 1994).

P-2

A.R.S. 13-4235 (eff. 1989).

p.2

A.R.S. 13-4235 (eff. 1994).

p.2

Rule 42, ER3.3(a)(l)(2), Anz. Rules Supreme Court.

p. 17

Rule 31, Ariz.R.Cr.P.

P-7

Rule 32, Ariz.R.Cr.P. (eff. 1989).

p.2

Rule 32.2, Ariz.R.Cr.P (eff. 1994).

p.2

Rule 32.4, Ariz.R.Cr.P.

p. 5

D.O. 902.

P-4

Prosser and Keeton on Torts, Lawyers 5th Rd. (1984)

p. 18

Keeton — Concealment and non-disclosure (1936).

p. 18

Wilson, Concealment or Silence as a form of fraud (1895), 5 Counsellor 230.

p. 18

F. CONSTITUTIONAL PROVISIONS
Art. I, Sec. 9, Cl. 2, U.S. CONST.

p.il

Art III, U.S. CONST.

p. 35

6th/14th Amend., U.S. CONST.

P-5

Vn

LOWER COURT DECISIONS
In Aleksys Lomeli-Garcia v. David Shinn. No. CV 19-08199-PCT-DWL(DMF), the Dist. Court suspended
the 28 USC 2242 Next Friend class action filing right, which sought to remedy the State's Suspension Clause
violations. Finding the bedrock Habeas right conflicted with Ninth Cir. 28 USC 1983 judge made law that forbids
laymen from filing such civil class actions, (See Appendix #1). While the Ninth Cir. Panel and En Banc Courts
declined to intervene and restore this fundamental Habeas corpus filing right by issuing a Writ of Mandamus,
(App. #2). The Magistrate then suggested dismissing Aleksys'first habeas on untimeliness grounds, (App. #3), to
which Aleksys objected, (App. #6). Although the Dist. Court later adopted the Rep. and dismissed the habeas
petition while denying a requested C.O.A., (App. #4). The Ninth Cir. Panel and En Banc Court, then denied
Aleksys'request for a C.O.A., so the 28 USC 2244, 2254 Suspension Clause Violations, Substantive Innocence
and other claims could be appealed and remedied (App. #5). This Petition timely follows and attempts to restore
the indigents' equal protection right to apply for the great writ and have both sentencing and freestanding
affirmative Innocence claims adjudicated on their merits.
JURISDICTIONAL STATEMENT
This Court has jurisdiction over this Petition For Certiorari pursuant to 28 U.S.C. 1254(1), Rule 10, Supreme
Court Rules, Slack V- MP-4aniel, 529 U.S. 473 (2000), and its inherent power to remedy a fraud that was previously
, 501 U.S. 32 (1991)
SUSPENSION CLAUSE QUOTE
Article One, Section Nine, Clause Two of-the United States Constitution, is central to this Petition, and reads
as follows:
"The privilege of the Writ of Habeas Corpus shall not be suspended, unless when in Cases of Rebellion or Invasion
the public safety may require it."

I.

FACTUAL STATEMENT OF THE CASE:
Aleksys supports this Petition for Certiorari with the following facts which should provide compelling reasons

to restore the suspended writ of habeas corpus to indigent Ariz. prisoners and to have his claim of substantive
innocence decided upon its uncontested material facts merits.

1

A. Concealed 2244(c) Suspension Clause Facts.
After a hearing, the Qasey v. Lem 834 F. Supp. 1553 (Ariz. 1992), court issued a statewide prison law lib rary
injunction, based upon the record which was before it in 1992. That holding was then affirmed in Lewisv Casev.
43 F.3d 1261 (9th Cir. 1994), based on the 1992 record before that Panel. Then, in Lewis v. Casev. 514 U.S.

1126

(1995), this Court granted Cert, based on the 1992 record which was before it, and Ariz. had 45 days thereafter,
to file their brief on the merits. After said merits'briefing, this Court dissolved the overbroad injunction, based

on

the 1992 record. Lewis v. Casev. 518 U.S. 343 (1996).
In 1992, Ariz. indigent prisoners were not required to brief the State or Federal Habeas Corpus Courts, as to
the Supreme Court legal basis for their claims, as both Rule 32, Ariz.R.Cr.P., A.R.S. § 13-4235 (both eff. 1989),
and 28 U.S.C. 2254, had no such mandatory filing requirements, and Indigents could simply file a facts only
petitions when needed.
Unbeknownst m the Casey Court record, in 1994, Arizona amended their State Habeas Corpus fifing laws.
Implementing both a 30-90 day S.O.L., and a mandatory fifing requirement that the indigent defendant

must

identify the federal legal citations, the legal points, and the authorities which provide the legal basis for his federal
claims, and would entitle the indigent to relief, Rule 32.2, Rule 32.4, Ariz.R.CrJP, A.R.S. § 13-4232, 13-4235
(all eff. 1994). Petitions which failed to comply with these mandatory filing duties were to be dismissed for failing
to comply with the State's procedural laws, (id). By contrast, in 1992, no such requirements existed.
However, in 1994, Ariz. Legislators and their supreme court knew these new mandatory fifing laws posed no
undue burden upon the indigent defendants who had full access to all of this Courts precedential law opinions, as
well as all the lower federal courts published holdings which applied this Court's Supreme holdings, principles,
and rationale, Casey (1994), supra.
Unbeknownst in the Casey Court record, on 4-24-96, the AEDPA was signed into law and mirrored the Ariz.
changes. It imposed a one-year S.O.L., and required indigents to exhaust the Supreme Court legal basis for a
claim, so that the State courts had a fair opportunity to consider and apply this Court's holdings, principles and
rationale, when deciding the Constitutional claim before them, 28 USC 2244, 2254, (1996)
At that time our Congress, like the State Congress, knew this imposed no undue hardship upon the indigent
prisoners, as every State prisoner in the Nation had either full access to all of this Court's published holdings or
2

competent legal advice on those legal citations, so these mandatory filing duties, again posed no undue burden
upon the indigents, as Bounds v. Smith. 430 U.S. 817 (1977), was the Law of the Land.
Collectively, these new State and Federal Habeas Corpus filing laws, mandated that the defendants promptly
submit the Supreme Court legal basis for a claim to the Habeas courts and to support the claim with those facts
which were material to the cited precedential legal basis. So that those courts were given a fair opportunity to
apply this Court's precedent to the material facts which were before them.
However, Ariz. did not brief this 1996 Casev Court on these intervening changes in the Habeas Corpus
mandatory filing laws. To effectively access the Habeas courts, prisoners now had to have direct access to this
Court's precedential laws that proved the claims legal basis and identified which of their facts were material and
had to be filed with the courts.
Put another way, prisoners were forbidden from filing court form only petitions which had no points and
authorities that identified their relied upon Supreme Court legal citations, and that identified for them, their relied
upon material facts. As such filings would now be dismissed, A.R.S. 13-4235 (1994), 28 USC 2254.
When this 1996 Casey Court suggested Ariz. implement a court forms only system, based on the 1992 record
that was before the Court. It was unwittingly suggesting Ariz. suspend the Writ of Habeas Corpus for indigents.
As unbeknownst to the Court at that time, such a system would forbid indigents from complying with their
mandatory Habeas Corpus filing duties.
This sage Court has a long history of protecting the Habeas Corpus Writ, and the Court would never knowingly
Suspend the right to apply for the Writ — unless fraudulent acts were perpetrated upon the Court. Aleksys asserts
that when Ariz. failed to notice this Court that they had amended their State Habeas Corpus filing laws, which
now required points and authorities to file a petition. That omitting this material fact along with the AEDPA
intervening material fact — equated to a fraud via omission, as evidenced by this Court’s suggestion Ariz. impose
a court forms only system which would equate to Suspending the Writ.
When sage Courts read the 1996 Casey, court forms Opinion, they are aware that 13-4235 (1994) and 28 USC
2254 (1996), both predated that Gassy holding. Which could only mean the Court would no longer protect the
Writ from State erosions.

3

B. Innocence And Habeas Suspension Case History:
Between at least 4-20-11 and 4-30-11, 19 yr. old Aleksys was suffering from a chemically induced criminal
psychosis, which his Science expert has appropriately labeled the Hannibal Lector Behavior psychosis (HLB),
(App. #8). This HLB psychosis was induced when Anz. allowed Aleksys to be secretly dosed with
new
psychoactive synthetic chemicals (NPS), with no notice, no warning, and without his express foreknowledge or
consent (id). Anz. has conceded to all of these chemically induced insanity facts, as well as the fact that the state
record substance use patient history facts were inadvertently falsified, and that Ariz. did not know Aleksys true
substance use facts histoiy until 2019, (App. #11).
Therefore, the Parties in this case do not dispute the fact that Aleksys remains imprisoned for his involuntary
HLB criminal psychosis which he suffered after Ariz. allowed him to be secretly dosed with NPS chemicals that
are well known to chemically induce temporary insanity and a well-known HLB criminal psychosis, (App. #8).
Ariz. has farther conceded, and all the lower courts have accepted as true, the fact that Casev. supra, and D.O.
902, had forbidden Aleksys from receiving any notice of his four grounds Supreme Court legal basis and their
material facts. Accepting the fact that due to this lack of notice, all four grounds legal basis and their material
facts remained unavailable to Aleksys from 2012 until his chance 2019 encounter with Medicolegal Consultant
Holcomb, as will be detailed in the next subsection.
On 4-30-11, in the early morning hours, Aleksys struck up a friendly conversation with Police while getting
gas for a stolen vehicle his HLB psychosis made him think he had not stolen. He then drove to a nearby park
where his psychosis caused him to see the trees moving (walking). Police then arrested Aleksys for his accomplice
role in his absconded Alpha male codefendants two murders, house robbery and stolen vehicles. Shortly after his
arrest police placed Aleksys on suicide watch due his bizarre behavior, whereat he slept for 3 days until the secret
NPS chemicals he had unknowingly consumed were purged from his system, and his chemically induced
psychosis abated.
Aleksys was interrogated by Police and confessed to all of his criminal acts. Providing police with very detailed
facts as to the crimes. Many of these facts were unknown to police at the time of the confession, but later verified
by police as being true. Barring only one single fact. Aleksys informed police he and the murdered female had
smoked "weed" hours before her murder, yet the autopsy blood work proved there was no signs of cannabis in her
4

system. Neither the police, the State, or Aleksys lawyers, bothered to question him on this single inconsistent
fact from his confession, when all his other facts had proven true. Until his Science investigator quizzed him

on

this fact, which surprisingly proved true (App. #8, #11). As teenagers such as Aleksys, commonly referred to
legally inhaled incense fumes — as legal weed, (id), which was the common street name given to the legal incense.
On 5-5-11, by virtue of the 6th/14th Amend., U.S. CONST., Accusation and Due Process Clauses

, Ariz.

indicted Aleksys for his accomplice role in the murders, robberies, and car thefts, and on 5-9-11, he was arraigned
on those charges. At no time did Ariz. every file their mandatory notice for seeking the death penalty. Since no
death penalty notice was filed and the time frames for doing so expired, this process noticed Aleksys he faced
either concurrent 25 yrs. to life sentences, or concurrent aggravated Natural Life sentences.
While Ariz. can enhance those mandated, A.R.S. §13-712 concurrent sentencing terms, by enhancing their 6th
Amend. Accusation and chargmg A.R.S. § 13-711, so the judge is empowered to impose enhanced consecutive
sentencing terms. Ariz. made the informed decision to not empower their court to do so.
Subsequently, Ariz. offered a plea agreement which stated Ariz. would not seek the death penalty, if Aleksys
admitted to his accomplice role in the double murders his codefendant had committed. Aleksys attorney advised
that there were no defenses to either the murder charges or the death penalty and that for these

reasons Aleksys

should accept the plea offer, (Dist Ct. Doc. #2, Exh. G, counsel signature confirming advice).
On 2-2-12, to avoid death, Aleksys trusted counsels’ advice and accepted the plea agreement, as did the court.
In doing so, Aleksys noted the plea verbiage authorized consecutive sentencing which his indictment did

not.

However, since his counsel Mr. Nielson had never provided him with any of the court defense files, Aleksys
assumed Ariz. had filed some document which authorized the court to enhance the indictments noticed
punishment, and further assumed the enhanced sentencing terms might only apply in certain situations, such as
when the victim was a minor, which was not his case. Although, the plea agreement did not notice any authority
for enhancing the concurrent sentencing terms.
On 7-13-12, Aleksys attended his sentencing hearing and had still not seen any of his defense files, which his
new sentencing counsel Mr. Cates retained on his behalf. At this hearing the court imposed two consecutive 25
to life sentences, which equated to a single aggregated 50 yrs. to life sentence. However, the court did not disclose
its authority for enhancing the sentences with consecutive terms.
5

While the court advised Aleksys of his 90 day right to file a state Rule 32.4, Ariz.R.Cr.P. notice. His counsel
Mr. Nielson had advised Aleksys not to do so, as this would make him eligible for the death penalty again and
Mr. Cates had stayed silent on the topic by giving no legal advice on whether or not to file and seek a fundamental
error review.
About 8-29-12, Aleksys was m prison when his former counsel Mr. Cates sent him all his defense files which
he had never seen before. Since he still had until about 10-14-12, to file his initial PCR Notice,

Aleksys quickly

searched these files looking for the document Ariz. would have filed which disclosed their statutory

or other

authority, which would have authorized the court to impose enhanced consecutive sentencing terms.
While Aleksys had no legal training whatsoever and knew nothing of law. He observed that his indictment
noticed all the penalty statutes except the consecutive sentencing statute and recalled that during all his multiple
9-12-11, 10-18-11, 12-13-11, 1-24-12, and 2-2-12, status conference hearings. Ariz. repeatedly referenced their
duty to file a death penalty notice if they desired that penalty to be imposed. Therefore, Aleksys presumed that
they might have some kind of legal duty to file the statute which authorized the enhanced

sentencing terms his

plea court had imposed. However, no such statute or other authority appeared anywhere in his defense files and
no such statute was charged in his original indictment.
During his review, Aleksys also found that the Dr. Weller psychiatrist report had misreported his

substance

use history prior to the acceptance of his plea. As had the Mrs. Walton, presentence report which followed suit
after the court accepted his plea. Moreover, his defense counsel Mr Cates sentencing memorandum and its
substance abuse expert report, had likewise replicated those errors . These documents had all misreported his legal
substance use as illicit drugs, due the authors confusion over the teenagers common street names for legal
substances. (Aleksys Science expert verified that this linguistic confusion was reported upon in published med.
studies. App. #8).
However, Aleksys could not grasp the legal relevancy of these misreporting errors and the lack of penalty
statute error, as D.O. 902 specifically forbid him from conducting any type of general or specific legal research
into the legal relevancy of these discoveries and forbid him from obtaining any legal advice on the possible claims,
(Dist. Ct. Doc. #2, Exh. B, D.O. 902.01.1.3, 902.03.1.2.2.1). This policy forbid Aleksys from being noticed as to
his contemplated claims Supreme Court legal basis, or what facts might be material to said contemplated claims
6

legal basis. While state law forbid the filing of state habeas petitions which had no cited legal basis, A.R.S. 134235, Slate v. Harden, 228 Ariz. 131, 134 (App. 2011)(counsel not appointed and Rule 32.4 notice dismissed
when no legal basis cited for claim).
Since the prison provided no method for Aleksys to be noticed of his contemplated claims legal basis or their
material facts, and no method to obtain legal advice on these contemplated claims. He asked his family to hire a
lawyer who could conduct basic legal research into his claims or provide basic legal advice on their viability.
However, the family could not afford the cost, (Dist. Ct. Doc. #2, Exh. E)(App. #16).
Moreover, nowhere in the prison library or the available D.O. 902 resources, is notice given that the 902 policy
itself, could be challenged in a federal Habeas Corpus petition. As the 28 USC 2254 annotated code does not
adequately notice this 2254 right, and the Ariz. A.G. has legally advised the Ariz. prisoners in public records (App.
#17), that 902 may not be challenged by way of Habeas Corpus, only by way of 28 USC 1983.
While affluent prisoners can still purchase their basic court access legal research tools or lawyer legal advice,
and then competently exercise their habeas corpus filing rights in that manner. D.O. 902 forbid Aleksys from
doing so due his poverty. Knowing of no legal basis for his contemplated claims, or what their legally relevant
material facts would be, Aleksys allowed his time limit for filing his initial PCR appeal to expire.
Nearly a year later, a fellow prisoner misadvised Aleksys that even if he didn't know the legal basis for his
contemplated claims, he could still file a Rule 31, Ariz.R.Cr.P, notice of appeal, and move the court to review his
case for fundamental error. As this would stop the clock before his 28 USC 2244(d)(1) one year S.O.L. expired.
While the state appellate court might reveal the secret legal authority for his consecutive sentence terms or the
legal basis for his other contemplated claim. While Aleksys did not fully trust this layman legal advice, D.O. 902
provided no person who could refute or validate the advice, as the policy forbid the Paralegal from tendering any
legal advice. Accordingly, he followed the advice and attempted to blindly exercise his Arizona bedrock
Constitutional right to appellate review by filing the notice of appeal. All to no avail.
For Ariz, properly informed the courts that Aleksys was a plea case which could not use the Rule 31 direct
appeal process and had to use the Rule 32, Ariz.RCr.P. process which time limit had expired. On 8-29-13, the
state court agreed and dismissed the notice of appeal. About 45 days later on 10-14-13, Aleksys 2244(d)(1),
S.O.L. expired and he lost his initial federal right to file for habeas corpus relief on his contemplated claims.
7

Between 2012-2021, Ariz. provided no method for Aleksys to be noticed that he could challenge 0,0. 902 by
way of habeas corpus. No method to be noticed of the Supreme Court legal basis for his contemplated substance
use misreporting error history, or the legal basis for his contemplated sentencing terms error claim. Nor did Ariz.
provide any method to notice Aleksys as to what facts would be material to these claims unknown legal basis.
These claims and the errors could have supported IAC and Suspension Clause grounds for relief — had Aleksys
known they existed.
C. Federal Court History Ignores All Material Facts
1. Discovery of Previously Unavailable Claims
During the very first days of January, 2019, Aleksys had a chance encounter with recognized Medicolegal
Investigator and Advisor KR Holcomb (KRH), who has an expertise in habeas law and a narrow Medical and
Injury Biomechanics expertise, (App. #8, CV).
While KRH was a fellow prisoner, his 12,000 hours of studying law, 8,000 hours of studying Biomechanics,
1,000 hours of studying the NTS medical sciences, his international Medical Journal Medicolegal and
Biomechanical, peer-reviewed publications.

Along with his Ghost Writing work for Lawyers and Ph.D.

Bioengineers. Had caused the Biomechanical, Legal, and Medical Communities Academia, to all take formal
written notice of both his integrity and his specialized areas of expertise in those fields (id). Even though all knew
he was only a self-taught prisoner. Recently, the prison authorized KRH to take his Medicolegal Consulting
business Nationwide.
In response to Aleksys sentencing terms question, KRH explained the Arizona process for imposing
consecutive sentencing terms was systemically unconstitutional, and was a process KRH spent years investigating,
having reviewed over 100 such trial and plea cases. In answer to the question, KRH explained the court’s power
to impose the enhanced sentencing terms came fromA.R.S. § 13-712, which was formerly known as 13-708, and
that contrary to the local legal community belief. State trial courts had no inherent power to impose the enhanced
sentencing terms, pursuant to the principles and rationale horn this Court's Chambers, supra, holding.
Aleksys thanked KRH for the advice and in his excitement to finally discover the secret statute his sentencing
terms were enhanced under, he wrote the D.O. 902 Paralegal and asked for the controlling precedents from this
Court so he could raise the claim by complying with his 13-4235 and AEDPA, habeas corpus filing duties.
8

I
However, in his excitement he forgot that D.O. 902 forbid the paralegal from providing legal advice or precedent
legal citations, so the paralegal denied this court access request on 1-9-19 , (App. #12)
Aleksys was forced to return to KRH and ask if he could assist in properly accessing the Courts even though
Aleksys could not afford to pay his expert consultant fees. After his complete case review, KRH agreed to assist
Aleksys due to the systemic nature of his grounds 1-2 claims, and due to Aleksys ground 4 substantive and
affirmative innocence claim.
KRH advised Aleksys of his right to challenge D.O. 902 by way of habeas corpus, contrary to the Ariz. A.G.
incorrect legal position (App. #17). Proving the point by giving him access to and notice of, this Court's Johnson
v. Avery, infra, line of authority which authorized habeas challenges in specific liberty interest situations. This
gave Aleksys notice of the legal basis for his ground one Suspension Clause claim, which in turn, identified the
claim's material facts.
KRH then provided Aleksys with copies of this Court's Weeks, infra, Gault, infra, Oliver, infra, line of
!£!£, supra,and other cases. This gave Aleksys notice of the legal
basis for his ground two claim which alleged constitutionally inadequate notice and a lack of jurisdiction defect
in his enhanced sentencing terms. Thereby, providing notice of the ground two claims material facts.
innocence, and Herrera infra,
substantive innocence, line of authority. Which noticed him of the Supreme Court legal basis for his Ground four
claim, and gave notice as to the legal relevancy of all the material reporting error facts in his State record which
Aleksys had identified under oath, (App. #11). Advising Aleksys of A.R.S. § 13-201, 13-502, which prohibited
criminal convictions for involuntarily induced acts, or when the defendant was suffering from a involuntarily
induced HLB psychosis that was secretly induced with Arizona's consent, by synthetic chemicals. As this equates
to temporary insanity.
These ground two and four claims, in turn provided Aleksys with the factual and legal basis for his ground
three claim of ineffective assistance which included a misreporting claim against psychiatrist Dr. Weller. This
ground alleged Mr. Nielson errored when he advised there were no defenses to the charges or death penalty threat.
That all his lawyers errored by failing to provide him with copies of the Dr. Weller report and the Mrs. Walton
presentence report which contained the substance use reporting errors, and further errored by failing to correct

those inadvertent reporting errors. KRH gave Aleksys access to this Court’s Aka, infra, Strickland infra, line of
authority to support these claims, which identified their material facts.
KRH then provided Aleksys with three key exhibits to prove the merits of his four grounds for relief. Dist.

Ct.

Doc. #2, Exh. A, was his fact witness statement on the 902 issue and his enhanced sentencing terms investigation.
Dist. Ct. Doc. #2, Exh. D, (aka App. #7), was the State's party opponent admission to ground one. Dist. Ct. Doc.
#2 and Doc. #19, Exh. F, (aka App. #8), was his expert investigative scientific opinion on why the NPS sciences
clearly proved the ground four affirmative and substantive innocence claim.
In the Exh. A under oath witness declaration, (Dist. Ct. Doc. #2, Exh. A). KRH declared he was a law clerk
and legal assistant for ADOC during the 1994-1997 Cagey, supra, era. That his ADOC law Librarian Supervisor
Mr. Gerten advised KRH that D.O. 902 had been implemented for only one purpose and that was to assure
prisoners could not properly or effectively access the courts.
ADOC Gerten informed law clerk KRH, that the prison was losing far to many constitutional claims before
the federal courts, as prisoners were filing effective and proper pleadings. It was hoped that the 902 policy would
make them ineffective before the courts and that this would stem the tide of ADOC loses.

Gerten stated that

ADOC knew the policy violated the U.S Constitution, but ADOC wanted to see what the most de minimums tools
would be, that the Courts would eventually order them to replace after they removed all the court access tools.
KRH also gave Aleksys access to the State's party opponent admission from another case. Therein, Ariz.
admitted to the state habeas corpus courts, that due to their 902 policy, plea defendants could not timely disco

ver

the legal basis for their contemplated claims, and that when defendants finally did learn of a previously unavailable
legal basis for their contemplated claim. That the state habeas court should decide the otherwise untimely claim
on the merits, (App. #7), due 902. (Thereby applying the Ganiev infra, unavailable claims principle, Aleksys
advocates herein, infra). In this other case, the state habeas court accepted the Arizona admission and decided the
merits of a claim which was filed years after the filing time limits had expired.
To support Aleksys 14th Amend. Due Process and iinnocence claim, KRH provided his expert under oath
Medicolegal investigative opinion, (App. #8)(Dist. Ct. Doc. #19). This opinion exposed the fact that the legal
incense products Aleksys burned, did not list their secret NPS synthetic chemical ingredient additives anywhere
on their labels. As both Manufacturers and Retailers secretly sprayed the product with the synthetic chemical
10

additives which were not noticed anywhere in the product labels.
They then falsely marketed the incense as all organic, safe, and natural. When the secret NPS chemicals were
all known to have highly addictive, dangerous HLB, and lethal affects. Unbeknownst to the children who
purchased them with no warnings of these dangers being given. As the products came with no such warnings as
to their dangerous synthetic chemical ingredients for the children who were the products primary customer base,
(App. #8).
From this opinion Aleksys further learned that while the Ariz. Dept, of Health knew of these lethal dang ers to
their children, they chose to protect the retailers profits rather then the children, and took no emergency public
safety measures, like twenty-five other States had. Allowing their retailers to secretly addict Aleksys and
numerous other children to their legal products, (App. #8), to protect their Retailers huge cash flow profits.
While Aleksys new under oath patient history, corrected the old fabricated and unsworn history, by proving he
began burning the incense in small, enclosed spaces, since this was how the product was intended to be used, That
after months of inhaling the fumes indirectly, he became involuntarily addicted to the secret chemical ingredients,
and began inhaling the products fumes directly to satisfy his addictive urges. Months later, this led to a very heavy
addiction, very heavy usage of the incense, (App. #11). Ultimately causing his HLB psychosis between 4-20-11
and 4-30-11, when the murders were committed by his absconded codefendant, (App. #8).
After his arrest and forced remission, these secret chemicals left his body via natural means. Once the HLB
chemicals had left his system, Aleksys HLB psychosis abated and he returned to his normal teenage law abiding
self.
KRH further noticed Aleksys that pursuant to 28 USC 2242, this Court's WhftmnrP i

infra,

1-2, on his own behalf and as an analogous class action habeas on behalf of the other 10,000+ indigent and poorly
educated class prisoners.
Aleksys found he had two mutually exclusive statutory duties under the AEDPA. In Ariz., like most states, it
takes 2-4 years to properly exhaust a newly discovered federal claim for relief. His statutory duty under 28 USC
2254, was to properly exhaust the claims before filing a 2254 petition. While his statutory duty under 28 USC
2244(d)(l)(B)(D), was to file his 2254 petition within one year of overcoming the State’s unconstitutional
11

impediment or within one year of discovering the previously unavailable legal basis for his new claims.
KRH advised that it was the obvious Congressional intent to have 28 USC 2244(d)(2) construed in a manner
which would cover this common situation. This way prisoners could properly exhaust as the AEDPA intended,
before filing new claims under 28 USC 2244(d)(l)(B)(D) for relief. As Congress would not have imposed such
conflicting statutory duties upon laymen when they drafted the AEDPA.
However, since this Court had not yet harmonized this AEDPA statutory conflict, KRH provided Aleksys with
access to this Court's and the Ninth Circuit's precedential laws that were unavailable to Aleksys and authorized
the stay and abeyance bandaid fix to the statutory conflict. Rhines v. Weber. 544 U.S. 269 (2005), Mena v. Long.
813 F.3d 907 (CA9 2016). Advising that he employ this well settled procedure to avoid the pains of setting a
precedent.
2. Federal Habeas, Mandamus, And COA History
Able to properly access the Habeas Corpus courts for the very first time with this qualified assistance, on 710-19, Aleksys filed four 28 USC 2254 timely federal grounds for relief pursuant to 28 USC 2244(d)(l)(B)(D),
and the courts statutory equitable discretion to toll time and deem the filing timely, (App. #13).
GROUND ONE asserted that DO. 902 had Suspended Aleksys and his 10,000+ Class of indigents
Constitutional rights, to properly access the Courts and appeal their cases or file for Habeas Corpus relief.
Asserting that the proximate cause of this Suspension act was this Court’s Casey, supra, decision which was
decided without knowledge of the material facts necessary to decide that case and to suggest court access remedies
to the State, 28 USC 2244(c). In violation of Art. I, Sec. 9, Cl. 2, 14th Amend., U.S. Constitution., Bounds v.
£midl, 430 U.S. 817, 821-828 (1977)(court access). Johnson v. Avery. 373 U.S. 483,485 (1969)(2254 challenge
to court access), flight v. Wsst 505 U.S. 277, 285-290 (1992)(Historic habeas right rvw'). Anders v. Calif 386
U.S. 738 (1967)(fundamental error rvw' right).
GROUND TWO asserted a class action violation of Aleksys and 10,000+ other indigents, 6tb714th Amend,
right to be timely and adequately noticed of the Accusations full potential punishment and the Due Process right
to only be punished by courts which have the proper jurisdiction to do so, and to not have a void sentence imposed.
In violation of Graham v. Weeks. 138 U.S. 461 (1891)(void sentences), Gautt v.
2007)(intemal Supreme Court case collection),in Eg Oliver. 333 U.S. 257 (1948), Apprendj v. NX, 120 S.Ct.
12

I
2348, at Fn. 10 (2000)(dual accusation ingredients), Es Eailfi Qm 121 U.S. 1,3 (1887)(accusation jurisdictional),
Harris v. UTh, 149 F.3d 1304 (CA11 1998), £tat£ v. Yargas-Burgos. 162 Ariz. 325 (App. 1998), e.g. People v.
mnm, 2020 Mich. LEXIS 688 (2020)("In the fullest light of reality, defendants maximum possible prison
sentence will be determined by ... their susceptibility to consecutive sentencing ... which constitutes an enhanced
punishment.... When a trial court advises a defendant... it must encompass the maximum possible prison sentence
... specifically as to which the trial court possesses an authority to impose consecutive sentences").
GROUND THREE asserted a violation of the 6th Amend, right to effective assistance from the Mr. Neilson
and Mr. Cates lawyers and from the prejudgment psychiatrist Dr. Weller. In violation of Ake v. Oklahoma. 470
U.S. 68 (1985), Sinpkkmd v. Washington. 466 U.S. 668 (1984), Hill v. Lockhart 474 U.S. 52 (T985L Lafler v.
Cooper. 132 S.Ct. 1376 (2013).
GROUND FOUR began as an asserted Fundamental Fairness violation of the mandatory Due Process right to
not be convicted for an involuntarily induced criminal psychosis, A.R.S. 13-201, which was induced by the
unknowing inhalation of secret chemical fumes and equated to criminal insanity, A.R.S. 13-502, Harris v.
Vasquez, 913 F.2d 606,625 (CA9 1990 (Supreme Court case collection on state created due process rights), rane
v. Kentucky. 106 S.Ct. 2142, 2146 (1986), Brecht v. Ahrahamsnn 507 U.S. 619, 637 (1993)
It then developed, (App. #13, 2254 form, p. 9, advising court claim is being better developed), into an additional
and credible claim of both actual, Schfrip v. Dslfl, 513 U.S. 298 (1995), Perkins, infra, and substantive innocence,
Herrera v. Collins. 113 S.Ct. 853 H992). Carring er v. St&w.art, 132 F.3d 463, 476 (CA9 1997)(defendant must
"Affirmatively prove that he is probably innocent”).

Due to the very credible expert opinion of Aleksys

Medicolegal Investigator KRH, who found trustworthy science that supported a valid Substantive Innocence claim
for relief, (App. #8).
Both ground one and two were filed on Aleksys behalf and as a "Next friend" on behalf of thelO,000+ other
indigent, illiterate, and poorly educated prisoners whose rights were likewise violated, (App. #13, memorandum,
p. 1-3). This was done under the authority of Rule 2, Rules Governing 2254 cases, 28 USC 2242, Johnson v
&WU 252 F. Supp. 783, at 785 (1966), 393 U.S. 483, 484-485 (1968)(class filing), U^ v. Preiser. 506 F.2d
1113, 1125 (CA2 1974), Cert, dnd., 95 S.Ct. 1587 (1975)(class filing). Jule^ v. Savage 512 F.2d 881 (5th Cir.
1975)(class filing), and Whitmore v. Ad^nsas, 495 U.S. 149 (1990)(next friend filing proper when prisoner denied
13

effective court access).
Aleksys filed these grounds with the Ariz. District court on 7-10-12, along with the aforementioned motion for
a stay and abeyance under the authority of Rjiines, supra, (Dist. Ct. Doc. #3). Thereafter, on 9-26-19, the Court
conducted its mandatory screening analysis and found all four grounds credible. Therefore, it ordered Ariz. to
answer both the stay motion and the Habeas factual allegations. This was followed by Aleksys supplemental
pleading which crossed in the mail with the above order. Therein, Aleksys provided the court with his Graham.
supra, authority, and moved the court to appoint class action counsel and award expert witness fees, (App. #14).
Thereafter, the court sua sponte Suspended the Rule 2, supra, 2242, supra, Averv. supra, Whitmore supra,
£rei§e£, supra, Savage, supra, right of Anz. indigents to have a next friend file an analogous class action petition
on their behalf. In doing so, the Court errored by holding no Rule, Statute, or Opinion from this Court authorized
such a procedure, although most of the above authorities were cited in the first three pages of the habeas
memorandum, (App. #13, Memo., p. 1-3).
It then held on one hand, that even if such authorities did exist, Aleksys could not exercise the Constitutional
right as it would conflict with Ninth Cir. civil law which forbids laymen prisoners from litigating 28 USC 1983
class actions without counsel. While holding on the other hand, that it would not appoint counsel to protect the
rights of the class members, (App. #1, App. #14, p. 3).
Aleksys contested this Suspension order by way of a petition for a writ of Mandamus to the Ninth Cir., which
declined to restore the next friend filing rights. Aleksys then moved the En Banc Court to rehear, but they declined
to restore the Writ of Habeas Corpus for the impeded indigent class of Ariz. prisoners, (App. #2).
Aleksys had presented a plethora of valid and credible reasons as to why his filing was timely. His Averv.
supra, D.O. 902 claim was supported by the State's admission, (App. #7), by his credible fact witness on the true
hindrance purpose of the policy, (Dist. Ct. Doc. #2, Exh. A), and by the 902 Paralegal refusal to help access the
courts, (App. #12). Alleging that the policy forbid him from complying with his state and federal Habeas Corpus
court access filing duties under A.R.S. 13-4235 and 28 USC 2254. Causing him to initially default his grounds
for relief, as the unconstitutional policy had forbid notice of the claims legal basis and material facts. Making all
four claims previously unavailable to Aleksys until his chance encounter with KRH had made the contemplated
claims legal basis and material facts available to him so he could properly access the courts,
14

Thus, he argued the claims were obviously timely under 28 USC 2244(d)(1)(B), as Ariz. had basically admitted
to the Constitutional violation of Avery. supra, RminHs Asserting that wl
or controlling law for ground one purposes, due the concealed 2244(c) facts. That portions of the opinion still
remained persuasive and instructive, such as the actual injury standard which Aleksys defaults complied with and
that was consistent with the Strickland, supra, prejudice prong standard.
Since the claims legal basis were previously unavailable to him in the prison library, as Ariz. admitted,
(App. #7), he further argued that under the Fagterwood, infra, 10th Cir. holding and arguable the Sonliote« haffa,
9th Cir. law, infra, holding, (App. #10,). Time limits for 28 USC 2244 (d)(1)(D) purposes are not triggered until
the date in which the prison makes the Court’s published precedential legal basis for the claim available to the
prisoner. Since that triggering notice date never took place and since Aleksys could only access this Court's
opinions, by and through KRH. It was asserted the filing was obviously timely under 9th and 10th Cir. law.
Moreover, since his ground four, now had trustworthy scientific evidence which proved both actual and
substantive innocence, (App. #8). Aleksys asserted that the filing was also timely under the Schlup. supra and
i
Perkins, infra, holdings of this Court which authorize equitable tolling due innocence.
Aside from this innocence point, Aleksys further argued that it was also clear, that he would qualify for
equitable tolling under this Court's settled Holland, infra, standard, since the delay in filing was directly due to an
outside objective factor. Which was the unavailability of his claims legal basis and material facts due Casev and
902.
When assessing the timeliness of the filing under 2244(d)(l)(B)(D), Holland, infra, Perkins infra, and
construing those laws. Aleksys moved the lower courts to apply the reasoned unavailability principle from this
Courts Carrier, infra, holding. In Carrier, infra, and

infra, this Court had held that when a claim was

previously unavailable to counsel who defaulted the claim in state court. That claim could still be raised in federal
court, as the unavailability fact meant counsel had done nothing wrong which would disentitle his client to the
Great Writ.
While those holdings dealt with unavailability due to the claims novelty, Aleksys asserted the novelty facts
were basically dicta — for it is the claims unavailability which controls that principle. Aleksys asserted it would
be more than "passing strange", Perkins, infra, to hold a claims previous unavailability would excuse a Lawyers
15

untimely state default, but not a indigent prisoner layman's untimely federal filing. As comity interests and
principles would not favor such a dual standard.
Finally, Aleksys moved the lower courts to grant ground one preliminary relief in the form of an order which
declared all four grounds would be heard on their merits, despite the potentially untimely nature of the filing.
Aleksys asserted that his denied court access claim should function just like a Schlup, supra, gateway claim.
Reasoning that since the claim's actual injuries were the defaulted grounds 2-4. An obvious equitable remedy, 28
USC 2243, for those Casey constitutional injuries, would be to hear them on the merits, (App. #14, p. 3, order #4).
In their Answers, Ariz. argued the filing was untimely under 2244(d)(l)(B)(D). To present this defense Ariz.
had to address the merits of the grounds. In doing so, Ariz. conceded that due to D.O. 902, the Supreme Court
legal basis and material facts for all four grounds, were previously unavailable to Aleksys between 2012-2019,
until his chance encounter with KRH. Conceded that their 2011-2012, state records reported substance use facts
for Aleksys, were all inadvertent false fabrications, and that his true factual history was contained in his 2019
declaration, (App. #11). Conceded that those new facts proved innocence, (App. #8), and conceded no authority
existed in the record for the consecutive sentencing terms which were inadequately noticed.
When adjudicating this case, since Ariz. had conceded that the Supreme Court legal basis and material facts
for all four grounds, were previously unavailable to Aleksys until his 2019 chance encounter with KRH, the lower
courts accepted those factual allegations as being true, (App. #3, p. 8, lines #24-26).
However, they made-up up a new legal standard for 2244(d)(l)(B)(D), which required Aleksys to prove his
diligent efforts to overcome Arizona’s unconstitutional obstacle to filing, (id). That made-up standard does not
exist in any rule, statute, or precedent, and was made-up just for this case.
For Schlup, infra, purposes, the lower courts made-up the same diligence standard which this Court had
specifically rejected in Perkins, infra.

Then accepted both the qualifications and expert opinion of KRH.

However, the Court errored when it used the State record unsworn substance use fabricated facts, which both
Parties had agreed were false facts. To impeach the credibility and reliability of the KRH opinion. Rather then
assessing the new 2019 sworn facts that both Parties had agreed were true facts which corrected the false State
record facts. Using those false facts to impeach the KRH scientific opinion of substantive innocence, and to reject
Aleksys request for equitable tolling under Perkins, infra. Rather then applying Perkins mfra, to the true material
16

facts both Parties had agreed upon.
Accordingly, on 5-18-20, the Dist. court disregarded Aleksys objections, (App. #6), adopted the Magistrate’s
suggestions, (App. #3), held that the 2254 filing was untimely, and denied the COA request, (App. #4). Thereafter,
on 6-29-20, Aleksys filed his State Habeas Corpus petition, and those proceedings are currently ongoing before
that trial court.
Subsequently, on 3-21-21, the Ninth Cir. panel and EnBanc Court entered their final order, that denied Aleksys
timely request for a COA, (App. #10), and to restore the Suspended right to file for the Great Writ of Habeas
Corpus, (App. #5).
This Petition for Certiorari timely follows and moves the Court to vacate or amend its fraudulent Casey, infra,
opinion, to deem the filing timely, to authorize both grounds one and two to proceed as a habeas corpus class
action, to appoint counsel for the class, to award Expert witness fees for KRH and two MD's to remand for an
evidentiary hearing, and then to stay those proceedings pending State exhaustion, (App. #14, p. 3).
In Section D, Aleksys submits grave and compelling reasons for this Court to grant Cert., so that it may restore
the Suspended Writ of Habeas Corpus and remedy the fraud which was perpetrated upon it. Section III-IV, then
provides traditional compelling reasons to grant Cert, and for Aleksys requested relief.
II. COMPELLING RULE 10REASONS TO INTERVENE.
Aleksys submits compelling 28 U.S.C. 2244(c) reasons for this Court to remedy the 1996 fraud that was
perpetrated upon it, by restormg the Ariz. indigent prisoners Suspended right to apply for the Writ of Habeas
Corpus. As the Casey Court has unwittingly directed Ariz. to Suspend this right, which the State happily did in
accord with their legal strategy. Aleksys 2020 lower courts then followed the Casey Suspension Clause attack,
sub silento, by also Suspending the Habeas Corpus 28 USC 2242, next friend filing rights. Assuring that indigents
would have no method to apply for the Great Writ.
This Court has the inherent Constitutional power to remedy frauds which are perpetrated upon it at any time
evidence of said fraud comes to light, Chambers, supra. This Court, also has the inherent supervisory power to
control the conduct of the Lawyers who practice before it and to assure they comply with the ethical candor rules
which bind them, Rule 42, ER 3.3(a)(l)(2), Ariz. Supreme Court Rules, (dutiles to correct false facts and provide
authority directly adverse to the position of the client and not disclosed by opposing counsel").
17

Both of these inherent powers are at issue here, as the Court can be a fraud victim when material or controlling
facts, 28 USC 2244(c), are concealed or not disclosed to the Court by the Lawyers before it.
fcfietofl m Torts, Lawyers (5th Ed.), p. 737-738, Keeton. Fraud

- Concealment and non-disclosnre (1936),

TOsoa, Concealment £r Silence as afbrmof fraud (1895), 5 Counsellor 230.
This would occur if a Lawyer before this Court concealed known material facts and/or legal authorities from
the Court to alter the Court's future judgment and is what obviously happened to this sage Casey, supra, Court.
As Ariz. certainly knew of its own intervening Rule 32.5, supra, A.R.S. §13-4235 (eff. 1994) laws and the
intervening AEDPA Supreme Court exhaustion and new claims filing requirements. As well as the new S.O.L.
changes for the state and federal habeas corpus courts.
It should be emphasized, that Aleksys maintains the highest level of respect for this sage Court’s integrity, both
today and in 1996. This Court has been the Writ's greatest bodyguard for hundreds of years. However, by
perpetrating a fraud upon the Court, Anz. was able to make the Court its unwitting pawn and the greatest threat
to Art. I, Sec. 9, Cl. 2, which the U.S. CONST., has ever faced since this great Republic was formed. Causing
this sage Court to unwittingly Suspend the Great Writ, by successfully turning the Writ's greatest bodyguard into
its greatest assassin.
At all times herein, Aleksys asserts that this Court's attack on the U.S. CONST., was not done knowingly. As
the Court was the unwitting victim of fraudulent misrepresentations by Arizona.
A.

Directs AZ To Suspend Writ Of Habeas Corpus

In 1990, the Casey, supra, class action was filed and after the 1992 evidentiary hearing record was created, the
case worked its way up to this Court which heard oral argument on the court access topic, on 11-29-95. Thereafter,
on 6-24-96, this Court decided the case in favor of Arizona by dissolving the statewide injunction it deemed
overbroad, due the lack of documented actual injuries.
In dissolving the injunction the Court suggested that Ariz. could replace the injunction with a court forms only
system, which would permit prisoners to file facts only court form petitions. This Casev Court then qualified
Pounds, supra, by holding that "The tools it requires to be provided are those that the inmates need in order to
attack their sentences, directly or collaterally",

at 355.

Aleksys identified his ground one class as those indigents who do not have access to the federal precedent that
18

supports their new contemplated claim. As the new claims’ authority did not exist in their state record,

e-g-

Martinez v.^Rygn, 132 S.Ct 1309, 1317 (2012). Which caused them to thereby default said new federal claim,
(App. #14).
Suggesting a system which denies all notice of or access to, this Court's Opinions, is to suggest a system which
forbids the Aleksys class of indigents from raising any new 28 U.S.C. 2244(b)(2)(d)(l)(B-D), federal claims for
relief. As they have no notice of this Court's Opinion which would create the new claim or notice of which factual
predicates are material to their claim and have legal relevancy. Such a system, would forbid the indigent from
complying with their A.R.S. 13-4235 filing duty to submit points and authorities which provide the legal citations,
or be defaulted. It forbids compliance with their 2254 duty to give the state courts a fair opportunity to apply this
Court s precedent to the material facts before it during the exhaustion process.
It further forbids compliance with the S.O.L. Congressional intent of both A.R.S. 13-4232 and 2244(d)(1), to
timely bring all the federal challenges before the state and federal courts to promote their interests in finality.
Accordingly, suggesting such a system in light of the 1994 Ariz. changes to their habeas corpus filing laws and
the AEDPA. Is to suggest a system which forbids the filing of any new federal claim for relief and contradicts
the Congressional intent of the AEDPA. Be that a claim that relies upon a retroactive decision from this Court,
newly discovered material facts, new frchlpp, supra, evidence, or Brady claims. Such a system forbids all types
and forms of newly discovered claims, e.
This sage Court would never knowingly suggest such a system that forbids the filing of any new federal claims
for relief — unless it did so unknowingly. When the 1994/1996 new legal filing requirements, were all
fraudulently concealed from the Court to alter its judgment.
As Aleksys informed all the lower courts, this honorable Court has repeatedly emphasized that the highest duty
of all Courts is to assure that the right to apply for the Writ is not impeded, accord:
"This Court has constantly emphasized the fundamental importance of the writ of habeas corpus in our
constitutional scheme, and the Congress has demonstrated its solicitude for the vigor of the Great Writ. The Court
has steadfastly insisted that 'there is no higher duty than to maintain it unimpaired, Bowen v. Johnston 306
U.S. 19,26 ... (1939).", Ay£T& 393 U.S., at 485.
It is no practical defense to assert that this Court's dicta merely suggested the court forms only system in pass!mg
19

and qualified that dicta by including basic legal advice in the suggested system. While intellectually this may all
be true, it is disingenuous in the real world. Lower Courts frequently treat all this Court's words as nearly divine.
Dicta from this Court which suggests a bare bones court forms only system, will be viewed by the Nation as
preliminary permission to implement such a system. Suggesting, but not defining the basic legal advice ingredient
of the system. Will be construed as Ariz. did, as a system that provides basic legal advice on how to fill out a
court form. Even though this was likely not what the Court meant.
Moreover, when the lower courts and lawyers review

they would be aware that this Court's legal

research skills and resources are — legendary. One and all would presume the Court knew of the new 1994/1996
filing requirements. If this Court is suggesting a system that would effectively Suspend the indigents right to
aPPty f°r the Writ with new federal claims for relief. Then this could only mean that the Court was ignoring its
duty to safeguard the Writ and intending to weaken or do away with the Writ for indigents.
While this would never be the true intent of this esteemed Court — this is nevertheless the appearance which
was perpetrated upon the Court by Arizona.
In Cas&y this Court held that "When ... shows ... claim ... he desired to bring has been lost or rejected, or,... is
currently being prevented, because the capability of filing ... has not been provided, he demonstrates that the state
has failed to furnish 'adequate law libraries or adequate assistance from persons trained in law', Bounds. 430 U.S.,
at 828", Casev. at 356.
a system which would ironically create these precise types of Constitutional
violations. By heeding those directions, the Ariz. prison made Aleksys four grounds Supreme Court legal basis
and material facts previously unavailable to him. Until his chance encounter with KRH in 2019, provided Aleksys
with effective access to the Habeas Corpus courts and allowed him to overcome this Court's directions to violate
the Suspension Clause.
For all these 2244(c) reasons,

a suggestion to implement a court

forms only system is a suggestion to violate the Art. I, Sec. 9, CL 2, 14th Amend., U.S. Const., Suspension, Due
Process, and Equal Protection Clauses. Compelling reasons for this Court to grant Cert., exercise its inherent
powers, remedy that misdirection, and restore the Great Writ for Ariz. indigents.

20

B. Ariz. D.O. 902 Forbids Habeas Filings By Indigents
A few years before D.O. 902 was implemented, Rule 32.4, Rule 32.5, Ariz.R.Cr.P., and A.R.S. § 13-4234, 134235, (all eff. 1994) were amended, to impose both a 90 day statute of limitations, and a requirement that state
petitions contain legal citations and points and authorities, which identify both the legal basis for the claim and
the facts that were material or had legal relevancy. Failing to comply with these changes, would mandate the
courts to forbid and dismiss the state habeas filings.
Previously, indigents could file facts only petitions which placed a huge strain on judicial resources. As courts
had to struggle with the filings in their efforts to determine if the facts which were cited by indigents, who were
mostly illiterate or poorly educated. Had actually stated a legal claim for which relief could be granted. These
new requirements placed no undue strain on the indigents, as all the prisons gave the indigents direct access to
this Court's decisions,

ase~

supra.

On 4-24-96, the AEDPA likewise followed suit with its new S.O.L. and requirements to exhaust the Supreme
Court legal basis for a new claim along with the claim's material factual predicates throughout the state courts.
To provide the state courts with a fair opportunity to decide the claim, it was no longer adequate to merely identify
the violated section of the Constitution. Indigents had to now cite the Opinion from this Court which their
conviction or sentence violated, and that identified those facts which were material or had legal relevancy. As
failing to do this, would not provide the state court with a fair opportunity to assess the claim. Again, this placed
no undue burden upon the indigents, as every state prison in the Nation was Bounds supra, compliant.
Thereafter, in 1997, D.O. 902 was implemented with the ADOC obvious foreknowledge, that the policy would
forbid indigent prisoners from complying with their, then new, State and Federal Habeas Corpus petition filing
duties. Which was the true and obvious declared ADOC intent and purpose of the policy per Aleksys fact witness,
infra, and per common sense.
Shortly before and shortly after the 1997, D.O. 902 was implemented, ADOC informed its official Law Clerk
and Legal Assistant KRH as to the true purpose and intent of the new court access policy. As one of his ADOC
duties, KRH was required to provide ADOC Staff and inmates with official legal advice upon request. Thus,
understanding the new policy's purpose and intent was a necessary portion of his job.
KRH was informed in 1997, by ADOC Librarian Gerten, that the ADOC was losing far too many constitutional
21

challenges by inmates, before the federal courts. That ADOC knew they could not completely stop their inmates
from gaining access to the courts. However, D.O. 902 was designed as a legal defense to future challenges. It
was the purpose of 902 to remove all the necessary court access tools. Without these tools their inmates filings
would become ineffective and void of all precedential authorities which identified their rights and procedures.
Thus, while they could still access the Courts in the physical sense, their filings would become incompetent,
ineffective, and cause them to lose their constitutional challenges, e.g. Gilmnre v People of Calif.. 220 F.3d 987
993-995 (CA9 2000)(14th Amend. Equal Protection right to precedential laws).
KRH was further informed that while ADOC knew that D.O. 902 was unconstitutional, their legal defense
strategy was to remove all the necessary court access tools and then replace only those de minimus tools which
this Court ultimately ordered them to replace at some future date. (Dist. Ct. Doc. #2, Exh. A).
Consistent with this denied habeas court purpose, D.O. 902 forbid all general or specific legal research and
replaced all the state and federal Reporter case law books with court forms. Assuring indigents would have no
direct access to this Court's or the lower Courts precedential laws. It further forbid its 902 Paralegal from assisting
with any legal research or providing indigents with any form of legal advice. In this manner, the policy assured
indigent prisoners would not be noticed as to this Court's precedential laws and those facts which would be
material or have any legal relevancy to said claims Supreme Court legal basis.
Assuring that indigents could not comply with the finality purpose and intent of A.R.S. 13-4134 and 28 USC
2244(d)(1), to timely submit their Supreme Court legal basis and material factual predicates for their claims, to
the State and Federal Habeas Corpus courts in a timely manner. As Ariz. finally conceded, in essence, to the state
habeas courts, (App. #7).
D.O. 902, assured Aleksys had no notice of this Court's Opinions which provided him with the right to attack
the policy by way of habeas, (ground one). No notice of the Constitutional principles or holdings from this Court
which show his sentencing terms are an ingredient of the State's 6th Amend Accusation, (ground two). No notice
of this Court s Opinion which found psychiatrists can be a necessary defense tool and ineffective assistance claim,
(ground three), and no notice of this Court's Opinions which hold trial proceedings must be fundamentally fair,
comport with mandatory Due Process rights, and that it would likely violate the Constitution to convict a person
who can prove Substantive or affirmative innocence with trustworthy scientific evidence, (ground four).
22

While further assuring he would have no notice of this Court's Opinions which construed the statutory 1 anguage
and meanings of the AEDPA, or his Echkp, supra, procedural rights. Rights and duties which are in a constant
state of flux with routine conflicts between the lower Appellate courts, (unbeknownst to Aleksys) which this
Court routinely resolves nearly every Term. Routine lower court conflicts that this Court can take judicially notice
of, Rule 201, F.R.Evd., and that Ariz. indigents have no notice of.
While on one hand, D.O. 902 provided no notice of the above implied holdings which identified Aleksys rights
and claims. On the other hand, the policy assured Aleksys would have no State provided method of obtaining any
legal advice which would notice him of the foregoing rights, claims, or material factual predicates. In this manner
the policy assured Aleksys would be forbidden from complying with his AEDPA filing duties.
By forbidding Aleksys from filing his habeas petitions, Ariz. has created a policy which this Court cited as a
textbook example of a policy that is obviously unconstitutional, accord:
"There can be no doubt that Tennessee could not constitutionally adopt and enforce a rule forbidding illiterate
or poorly educated prisoners to file habeas coipus petitions. Here Tennessee has adopted a rule which, in the
absence of any other source of assistance for such prisoners, effectively does just that.". Averv. 393 U.S., at 487
If one were to substitute the word Arizona for the word Tennessee, in the above quote, it would still ring true
in this case. For Arizona has knowingly forbid all indigents from submitting new federal claims for relief to their
courts and the Federal Courts.
Arizona conceded to all of these D.O. 902 factual allegations throughout the lower courts, and all of those
courts accepted the fact that 902 made the legal basis and material factual predicates for Aleksys four claims,
previously unavailable to Aleksys until his 2019 encounter with Medicolegal Advisor KRH, (App. #3, p. 8).
D.O. 902 was birthed at the direction of this Court's unconstitutional dicta in
Ariz. implement a policy such as 902 that would forbid habeas filings by indigents. Even though the Court may
have been unaware of the material facts which made its dicta directions unconstitutional, and even though the
Ariz. Casey Lawyers must share the bulk of that blame. This does not change the fact that this Court's Casey
suggestion was and remains blatantly unconstitutional. As it suggests a policy that forbids the filing of new federal
claims for relief, by way of habeas corpus under the laws that existed in 1996 when the case was decided, and
under today's laws. A policy that replicates the precise type of policy this Court cited in Averv. id. , as an
23

example of a policy that would be facially and clearly unconstitutional
Wherefore, all of these reasons, Aleksys asserts that 902 was created in accord with this Court’s suggestion,
that Ariz. and the lower courts have accepted the fact that this policy forbid Aleksys from timely presenting his
new Federal claims for relief to the courts.
Casey, supra, and should be declared unconstitutional.
Accordingly, Aleksys moves the Court to accept Certiorari and decide whether or not 902 was or was not an
unconstitutional obstacle to his timely filing. As the lower courts left this controlling question unanswered.
C. Lower Courts Suspend 2242 Next Friend Filing Right:
When Aleksys filed his grounds 1-2 on his own behalf, he also filed these two grounds as a Next Friend
on
behalf of over 10,000+ other indigents, most of which were either illiterate or poorly educated.
Knowing this procedural right was rarely exercised, Aleksys cited his Rule 2, 2254 Rules, authority for the
procedure on the first page of his supporting memorandum, (App. #13, Memo.). Citing hisAverv. supra, authority
on p. 2 (id), and his 28 USC 2242 ffidser, supra, and Savage, supra, lines of authority, on p. 3 (id). Then, later
learning of this Court’s WhitafilS, supra, authority from KRH, since D.O. 902 forbid notice of or access to the
precedent by Aleksys.
In Avery, supra, at the District court level the question of legal standing arose, as the prisoner writ-writer who
filed that petition was challenging a prison policy which did not hinder his court access. That policy did hinder a
very large and "indeterminate" class of illiterate and poorly educated fellow prisoners from accessing the courts,
but did not prevent the writ-writer from accessing the courts. So Tennessee argued he could not challenge the
policy on behalf of the class as he had no standing to do so. However, the district court held that 28 USC 2242
gave the writ-writer legal standing to both prepare and prosecute the petition on behalf of the very large class,
[even though he was pro per]. When the case finally reached this Court it affirmed the District Court’s use of
2242 for this purpose, A very,252F. Supp., at 784-785, Amy, 393 U.S, at 484-485, n. 1.
Accordingly, when Aleksys filed his ground one denied court access claim on behalf of the large denied court
access class, Rule 2, 2242, Avery and Whitmore, all authorized him to do so as their denied court access Next
Friend.
In the Second Circuit £rei££r, supra, holding that court held that 2242 authorize an analogous habeas class
24

•

action filing to challenge systemic unconstitutional sentences. Which resulted in that court issuing numerous
individual habeas corpus writs to remedy the class members unconstitutional sentences.
Preiser, supra, issued an in-depth opinion as to why such a class action procedure was proper for a variety of
judicial economy and other reasons. Noting that historically the 2242 statute had always read in the plurality and
was only changed to the singular for stylistic reasons. Finding that 28 USC 2242 authorized one prisoner to file
on behalf of a large class, and that this procedure was not controlled by the Rule 23, FRCP, line of authority which
was informative, but not binding. Preiser. 506 F.2d, at 1123-1131, n. 8.
Other circuits arrived at similar conclusions and in the Fifth Circuit Savage, supra, line of authority, that court
held that the habeas class action procedure is properly exercised by a prisoner when the alleged sentencing errors
all raise the very same legal question for every class member. Such as this case does regarding timely/adequate
notice and the courts authority and jurisdiction to impose enhanced sentencing terms,

!, all those Courts

allowed the pro. per. prisoners to raise and prosecute the sentencing error claim for the entire class with no
assistance from a lawyer.
Accordingly, when Aleksys filed his ground two systemic sentencing error claims on behalf of a large class,
he was specifically authorized to do so by Rule 2,2242, Preiser and Savage.
After Avery, supra, Preiser, supra, and the Savage, supra, lines of authority were all decided by the numerous
circuit courts, this court codified the 2242 right into it's then new 1976 Rule 2(c), Rules Governing 2254 Cases.
Which made the next friend class action procedures standard habeas corpus practice.
Initially the District court allowed Aleksys' class action to proceed and directed Arizona to Answer the
allegations, (App. #15). However, after Aleksys advised the court on 9-20-19, that his ground one class would
include every prisoner who defaulted his federal claim in state or federal court between 1996-2020, that court
issued its order Suspending the 2242 right, (App. #1).
Erroneously reasoning that no rule, statute, or opinion from this Court had recognized such a filing right. That
even if such a filing right did exist, it would be prohibited by Ninth Circuit law which forbids Rule 23, FRCP,
class action lawsuits from being filed by laymen. As those lawsuits must be prosecuted only by lawyers. Then
declining to grant Aleksys preliminary relief request to remedy that friction by appointing counsel for the class,
(App. #14).
25

Aleksys explained to the Ninth Cir. mandamus panel and En Banc court, that the reasoning was plain error, as
Rule 2, 2242,
authorized Aleksys to exercise this bedrock habeas right by invoking the next friend class action procedure,
wherein Rule 23, FRCP, did not apply, Rule 11,2254 Rules.
Moreover, to the extent the court thought only counsel should prosecute such an action. District courts retain
the discretion, as they always do, to appoint counsel for habeas actions, and the court abused that discretion when
it denied a preliminary request for class counsel on one hand and then used its other hand to suspend this right since Aleksys was proceeding without counsel due his poverty. As it was beyond question that the class ground
one claim was credible and had clear merit, in light of Arizona's state and federal courts accepted party-opponent
admission, (App. #7), and concessions.
To the extent the court was holding that the conflicting Ninth Circuit judge made Rule 23, FRCP, laws had
prohibited such class action filings by laymen, and controlled this habeas filing. Those inconsistent laws cannot
be applied to habeas corpus class action filings pursuant to the express text of Rule 11, Rules 2254 Cases.
To the extent the court was holding that those Rule 23 judge made laws had somehow superseded and
Suspended this basic Habeas Corpus Next Friend Rule 2(c), Rules 2254 Cases, statutory and Constitutional
layman filing right. Even though those Rule 23, FRCP, judge made laws for civil lawsuits have merit by
forbidding laymen from prosecuting class action suits and permitting only lawyers to do so. Such judge made
Rule 23 laws, which require only lawyers to prosecute such 28 USC 1983 lawsuits. Cannot be applied to a habeas
filing if it is inconsistent with habeas practice, Rule 11, Rules 2254 Cases, or denies a basic and specific statutory
and constitutional habeas corpus layman filing right, as to do so would suspend the right. In other words, a judge
made law cannot be applied to deny a habeas layman filing right which Congress granted in its statute and this
Court authorized in its habeas Rules and Opinions, as doing so would violate, Art. I, Sec. 9, Cl. 2, U S CONST
Moreover, as Aleksys suggested to the Ninth Cir. mandamus courts, (App. #9). This counsel question for
habeas class actions, should be decided as it always is, on a case by case basis. For example the Smgt class
action was prosecuted by laymen as those courts decided counsel was not needed to protect the class, since the
action only raised a single legal question. Like Savage, Aleksys1 ground two class claim did not yet require
counsel. As he was bemg initially assisted by the person who tutored Lawyers on the legal basis for this Novel
26

claim (KRH) that was extensively investigated, (Dist. Ct., Doc. #2, Exh. A). Thus, Aleksys felt he could
adequately protect the rights of his ground two class members, but not the ground one class rights. As those
presumed ground one actual injury defaults permeated the entire state between 1996-2020. Actual injury Court
records and prisoners he had no access to, which is why he requested the appointment of class counsel to protect
those prisoners rights. Presenting textbook examples of how and when the discretion to appoint counsel should,
or should not, be exercised by the district courts, (App. #9).
However, despite all these points, the mandamus courts refused to intervene and restore the right, (App. #2).
While the District Court and Ninth Cir. courts likewise declined to grant a C.O.A. on this issue, (App. #4-5, #10).
Although those decisions violate Rule 2, Rule 11, Rules 2254 Cases, 28 USC 2242, and contradict this Court’s
Avery, Whitmore, holdings, while further conflicting with decisions from the Second and Fifth Circuits.
Ironically, the decisions are consistent with this Court’s Casey suggestion that the lower courts allow Arizona to
suspend the indigents right to present new claims in a habeas corpus filing. If the lower courts are to follow those
suggestions, they must suspend both the personal 2242 filing right and the next friend 2242 filing right, as was
done in this class action case.
Accordingly, Aleksys asserts that reasonable judges would debate the lower courts decision to Suspend this
Next Friend class action filing right and moves this Court to accept Cert., so this habeas corpus filing right can be
fully restored for Aleksys and the other indigents who had the right Suspended, as the Court has no higher duty
then to do so.
D. L-oto^r C C'AV'Vi

Feo\ Xo

In Murray v. Qmkx, 477 U.S. 478 (1986) and Reed v. Rqss, 468 U.S. 1 (1984), this Court covered in depth,
its rationale for excusing a state procedural default, when a claim was so novel as to make its legal basis
"previously unavailable" to counsel who could not be faulted for not having timely raised it in state court.
Justifying the use of the court’s statutory discretion under 28 U.S.C. 2243, 2254, to excuse the default for just
cause.
As Aleksys asserted before the lower courts this Carrier and Reed statutory cause principle is controlled not
by the novelty dicta fact, but by the unavailability fact. For it is the previous unavailability of the claim which
justifies the court in exercising its statutory cause powers. Why a claim was previously unavailable, is far less
27

important then the fact it was unavailable to a defendant, whatever the reason.
In this case, Ariz. conceded to Aleksys factual allegations and tendered a party opponent admission, which the
lower courts accepted as true. That due to D.O. 902, all four grounds for relief remained previously unavailable
to Aleksys between 2012-2019, until his chance 2019 encounter with KRH, (App. #7, App. #3 at p. 8).
In his objections, Aleksys argued that the Magistrate errored directly in his Recommendations 28 U.S.C.
2244(d)(l)(B)(D) analysis (infra). He then argued separately that the entire analysis further errored by failing to
PP y

■■«—

P

usv unavailable principle to its 2244(d)(1) analysis and Holland, infra, standard,

(App. #6). As the timeliness question is answered in Aleksys favor under that Carrier statutory discretion,
"previously unavailable" principle. If this principle is applied to either the statutory 2244(d)(l)(B)(D) standards,
or the statutory Holland, infra, equitable tolling standard, as should have been done in this uncontested case.
Accordingly, Aleksys moves the Court to accept Cert, to answer this question of whether or not this Carrier
"previously unavailable” principle should be applied to a Court's 2244(d)(B)(D) and Holland infra, analysis

when

doing so will make the denied court access filing timely, and when the State admits their policy made the claims
legal basis and material facts previously unavailable to Aleksys.
UvSp(LV\S\CV\

Here, Aleksys provides a number of Rule 10, supra, compelling reasons for the Court to accept Certiorari and
remedy judge made legal standards that were crafted only for this case, in an apparent effort to protect Arizona's
Suspension of the Habeas Corpus Writ. Doing so, by rewriting the Congressional AEDPA statutory standards so
this action could be dismissed before D.O. 902 was necessarily declared unconstitutionaljas it is.
Resulting in legal standards for this case, which conflict with the legal standards imposed by Congress, by this
Court, by the other Circuit courts, and arguably by the Ninth Circuit. Then further modifying and misapplying
this Courts statutorily created, equitable discretion tolling standards. All in an apparent effort to protect Arizona’s
clear Suspension of the Great Writ. As this Court unwittingly suggested they do, back in 1996.
Aleksys lower courts could not avoid their clear duty to declare D.O. 902 unconstitutional, unless they

could

somehow dismiss the filing as being untimely. Something they could not do under the past and present versions
of the AEDPA legal standards which govern the timeliness of habeas corpus filings. Therefore, the court made
up their own legal standards and applied them only to this case . Then dismissed the action under those made up
28

legal standards.
Accordingly, the Court is moved to accept Certiorari and remedy all of these plain and obvious errors, so the
right of indigents to apply for the Great Writ of Habeas Corpus can be restored in the State of Arizona whereat to
this day, it remains Suspended.
E.. Made-Up 2244(d)(1)(B) Standards Protect Suspension:
Aleksys*1 2254 ground one identified this class as those indigents who cannot comply with their State and
Federal Habeas Corpus filing duties, as the Supreme Court authority for their new federal claim, appears nowhere
in their state record and was previously unavailable to them. That is, lacking any and all legal notice of their
claims. Causing their default actual injuries, e.g. Martinez v. Ryan. 132S.Ct. 1309,1317 (2012)(when new claim
not in state record, difficult for defendant to have adequate notice of claim), Gunn v. Newsome. 881 F.2d 949,
956-962 (11th Cir. 1989)(En Banc)(indigent must have notice of both legal precedent and legally relevant facts to
. be noticed of claim. Adequacy of the legal notice for said claim should be assessed under this Court's liberal pro
se standards). Easterwood. infra, Carrier, infra, Reed, infra.

Bowens. Weeks,

(all supra), legal basis and material facts, causing them to default those previously

unavailable Fed. grounds. As no amount of due diligence can uncover a precedent which does not exist in the
prison, and remains unavailable to the indigent, due restrictive court access prison conditions. Conditions, which
this 1996 Court suggested Ariz. prisons impose.
When denying Aleksys assertions under this subsection that D.O. 902 was unconstitutional and failed to
provide notice of his four claims Supreme Court legal basis and material facts. His lower court accepted these
allegations which Ariz. did not contest, (App. #3, p. 8), and accepted Ariz.'s Party-opponent admission that 902
obstructed timely habeas filings due its restrictive court access "resources", (aka tools), (App. #7), which were
intended to hinder timely filings and cause defaults, (Dist. Ct. Doc. #2, Exh. A)..
Yet, found Aleksys had failed to establish his diligent efforts to overcome the Arizona D.O. 902 "obstacle",
and refused to apply this subsection for this reason, (App. #3, p. 8). A made up legal standard which does not
exist m the Congressional 2244(d)(1)(B) statute or any precedent. As under 2244(d)(1)(B), it is enough to show
that the state placed a constitutional violation in the way of a timely filing, by making the claims legal basis
29

previously unavailable to Aleksys.
Neither this statute nor any opinion from this Court, requires the indigent to show his diligence in attempting
to overcome said constitutional violation, as subsection (B), is not subsection (D), infra, and imposes no such
diligence statutory burden upon Aleksys which he had to meet. Carrier. 477 U.S., at 513-514, citing, Reed v.
&QSS, 468 U.S. 1, at 16 (1984)( "we hold that where a claim ... legal basis is not reasonably available to counsel,
a defendant has cause

Panetti v Quartenpan, 551 U.S. 930, 946 (2007)("we resisted an interpretation of the

statute that would produce troublesome results', 'create procedural anomalies', and 'close our doors to a class of
habeas petitioners seeking review without any clear indication that such was Congress intent'), CaINnan v u.s,,
364 U.S. 587, 596 (1961)(when statute susceptible to more than one interpretation, the rule of lenity dictates that
any doubt should be resolved in favor of the defendant).
Moreover, this precise ’overcome the obstacle' standard, was specifically assessed and rejected by the Ninth
Cir. 2010, SPUliotes Panel, infra, and other circuit courts, under their 2244(d)(1)(D), statutory diligence analysis.
Finding the statute requires reasonable diligence and does not require a prisoner to show some obstacle stood in
his way of filing,
However, Aleksys’’lower court incorrectly cites to the 2244(d)(1)(B), Eiyant v. Ariz, Attorney Gen.. 499 F.3d
1056, 1061 (9th Cir. 2007)(timely noticed IAC Appellate counsel claim), case. To the 2244(d)(1)(D), Mutah v.
SchiiG, CV-07-1415-PHX-DGC, (8-6-09, Doc. #12, R and R)(timely noticed Blaklev v. Washington 542 U.S.
296, 2004, claim), unpublished case holding, and to it's internal case of fiasherry y. Garcia. 448 F.3d 1150 (9th
Cir. 2006)(ignorance of available law no excuse for pro. per. untimely filing), for its legal support.
Alleging these holdings provide the authority which required the court to dismiss for untimeliness. While
Aleksys takes no issue with these holdings, they simply have no bearing or legal application to this Carrier, supra,
category of ’previously unavailable legal basis' case, and must be disregarded as being non applicable to this
factual pattern.
In bothBiyanl, supra, and the unpublished Mutah. supra, case. Those defendants were both timely noticed of
this Court s precedent which established their new claims legal basis and material facts which were therefore,
timely available to them. Since they both had timely notice of their claims legal basis and material facts, they
both timely exhausted their claims in the state courts. Thereafter, they both became negligent in their federal court
30

timeliness filing duties for no valid reason. Frivolously claiming D.O. 902, had failed to notice them of their
AEDPA S.O.L. filing duties. When contrary to those assertions, the relevant statutes were readily available to
them in the prison library and gave notice of their filing duties.
Since both of these prisoners were timely noticed of their new claims Supreme Court legal basis and material
facts and their 2244(d)(1) filing duties. They did not and could not allege that they were denied court access, on
the grounds that their new claims legal basis and material facts were "

Si, supra, to

them due to D.O. 902. Bearing no factual pattern resemblance to this case.
For this reason, those defendants, in those two cases, do not belong to the Aleksys ground one class of indigents
who were denied timely notice and court access. As they had adequate and timely noticed claims factual patterns,
which were the polar opposite of this’ previously unavailable legal basis', record, e.g. cf. Oliver. 333 U.S. 499
(1948)(right to adequate and timely notice of charges). Those Brvant. supra, and Mutab. supra, timely noticed
claims factual patterns, bear no resemblance to this previously unavailable and no notice factual pattern. Thus,
the authorities’ holdings, principles, and rationale, have no application to this denied legal notice case.
As to the Raspberry, supra, line of authority, it likewise has no bearing upon this case. It stands for the principle
that ignorance of the available law is no excuse for a layman’s untimely filing. That is, laymen cannot rely upon
their lack of legal training as an excuse for an untimely filing. However, Aleksys accepted facts show a lack of
timely and adequate legal notice. A bedrock Constitutional principle this Court is well acquainted with, Oliver,
supra, Gautt. supra, Carrier, supra.

was denied timely court

access due to his lack of legal training, but rather a lack of legal notice.
Alleging this lack of legal notice was due to his poverty and unconstitutional D.O. 902 obstacle, which made
legal notice of all 4 grounds legal basis, previously unavailable to him. Allegations which Ariz. conceded,
admitted, and that the lower courts accepted as true, due to D.O. 902, In other words, he did nothing wrong which
should disentitle him to the protection of the Great Writ, e.g. £ay v Noia. 372 U.S. 391, 438 (1963)("principle
that a suitor's conduct m relation to the matter at hand may disentitle him to the relief he seeks."). As he simply
had no timely notice that there was a legal basis for all four of his claims.
Creating a new

and

:AY£r£' statute, is to in essence, rewrite the statute to suit the Suspension Clause needs of Arizona, e.g. Btatg v
31

laiangg, 185 Ariz. 208, 212 (1996 En Banc)(" We have a duty to avoid rendering statutory language superfluous,
void, contradictory, or insignificant."). Therefore, Aleksys moves the Court to accept Certiorari and to remedy
these 10,000+ indigent class actual injuries and injustices, so the Great Writ can be restored for all Ariz. indigent
prisoners — as is their Constitutional right.
F J Conflicting 2244(d)(1)(D) Standards Protect Suspension:
Under this section, Aleksys argued that the Supreme Court Legal basis and material facts for all four of his
federal claims, were previously unavailable to Aleksys, due to the D.O. 902 defects, which hindered Aleksys horn
receiving adequate and timely notice that the claims existed. Submitting both the Ariz. party-opponent admission,
(App. #7), on this lack of notice and unavailability point. Along with the D.O. 902 paralegals admission that she
was prohibited from assisting Aleksys with his contemplated claims and mandatory State and Federal Flabeas
Corpus filing duties, (App. #12).
Ariz contested none of these material factual allegations, and the lower district court therefore, accepted them
as all being true, (App. #3, p. 8). Under Ninth Cir. law those State concessions equate to admissions by the State
under BM v. Calif. Dept, of Corr.. 20 F.3d 1469, 1474 (9th Cir. 1994), that the facts were all true. However,
in its analysis under this subsection, after accepting these factual justifications for the untimeliness of all four
grounds, as being true — the court then ignored them in its 2244(d)(1)(D) analysis. Focusing instead, only upon
the ground four State record facts which both Parties had agreed were false facts, (infra subsection C).
Disregarding the accepted and admitted ground one Avery- supra, factual allegations which showed the new
claims legal basis were all 'previously unavailable’ to Aleksys.
Accordingly, Aleksys argued the filing was obviously timely under subsection (D), as under Ninth and Tenth
Cir. law, his AEDPA diligence duties are not triggered until the date on which the prison makes the Supreme
Court precedents legal basis available to the prisoner in the library. An event which has never taken place. See
Souliotes v- Evasg, 622 F.3d 1173 (9th Cir. 2010)(rejecting obstacle legal standard in favor of statutes reasonable
diligence standard and adopting EasterwnnH infra), Sonlintes v.

654 F.3d 902 (9th Cir. 2011)(En

Banc)(vacating on other part two grounds), and gasterwood v. Champion. 213 F.3d 1321,1323 (10th Cir.
2000)(holding AEDPA statutory diligence duty not triggered until clams precedent is made available to prisoner
in prison library).
32

Even though the validity of 2010.Smilml£S was in question. Aleksys still argued that part one of the opinion
remained good Ninth Cir. law in light of its case history, (App. #6, p. 14-16). That despite this arguable fact, the
Tenth Cir., Easterwood opinion remained good law which the Ninth Cir had adopted in 2010 Souliotes. supra. As
was this Court's cause and prejudice, Carrier andjieed, supra, ‘previously unavailable legal basis’ rationale, which
was identical in principle to this action’s circumstances.
As this Court held in Holland, infra, due diligence means reasonable and not maximum diligence. Actions a
reasonable prisoner would take when faced with a court access system which specifically prohibited all legal
I

research and access to all State provided legal advice. Aleksys did what a reasonable person would do.
He tried to have his family hire a lawyer who could conduct basic legal research and provide legal advice. But
due to his poverty and the legal debts his family owed, this was not possible, (App. #16)(aka Dist. Ct. Doc. #2,
Exh. E). For as Aleksys confirmed in 2019, his 2012 reading of D.O. 902 was correct and that paralegal was
forbidden from providing Aleksys with any of this Court's controlling precedent legal citations, so Aleksys could
comply with his mandatory A.R.S. 13-4235 and 28 U.S.C. 2254 filing duties.
As Aleksys informed the lower courts, this equated to solitary confinement, just as the Avery, supra, defendant
faced. Rather then a physical solitary confinement, it was a State created isolation from all of this Court’s
precedential laws. In this restrictive situation, only by unrealistically trying to escape from prison to access this
Court’s opinions could a prisoner prove diligence, if one required such proof. For there is nothing else an indigent
Ariz. prisoner can do to access this Court's opinions which the prison makes unavailable to it's indigents, other
then trying to escape so this Court's opinions can be accessed. A draconian remedy Aleksys is not suggesting.
Accordingly, for all these reasons, Aleksys moves the Court to accept Certiorari, and to adopt Easterwood.
supra, as the binding 2244(d)(1)(D) law for this case. Since that holding and its rationale is consistent with both
this Court s Reed, supra, unavailability principle, and the Oliver, supra, adequate and timely notice principle.
G Misapplied "Holland" and "Perkins" Tolling Standards:
In Holland V. Zkrida, 560 U.S. 631 (2010), this Court held that if a defendant could show some objective
factor had hindered his timely filing and that he was diligently attempting to exercise that right. Then the Court
could exercise its statutory discretion powers and equitably toll the time for filing under 2244(d)(1). While in
McQuiggig V. £sddiis, 569 U.S. 383, 391-396 (2013), this Court held that if a defendant a
33

[up,

supra, actual innocence to the Court's satisfaction. That the time limits under 2244(d)(1), would also be tolled.
Finding for State/Federal comity reasons, that it would be "passing strange" to hold such a cause/prej. showing
would excuse an untimely State procedural default but not an untimely Federal court procedural default.
In denying.tolling under Holland, supra, the lower court first accepted Aleksys factual assertions that he was
"unaware of the legal basis for his grounds or of the legal relevancy of the facts in his case", due to D.O. 902,
which forbid said legal notice, and forbid compliance with the State/Federal Habeas Corpus filing laws (App. #3,
p. 8, Ln. #25-26)(App. #6, p. 5-16, #9A, p. 3, #9B, p. 2, #9C, p. 2-3 , #10A p. 2-3, #10B, p. 6-8). Then relied
upon false ground 3-4 facts both Parties had agreed were tainted evidence. Misapplying the previously discussed,
Rryipberry, supra, noticed legal basis line of authority, to this lack of notice and ’previously unavailable legal basis’
record.
Concluding that Aleksys did not prove he "has been pursuing his rights or that some extraordinary
circumstances made it impossible for him to timely file a petition", (App. #3, p. 12). Even though that is the
incorrect standard. As Holland requires only proof of a hindrance and not proof the filing was made ’impossible’.
That is, that "some extraordinary circumstances stood in his way", Holland. 560 U.S. at 649. Thereby, by applying
the wrong legal standard to evidence that both Parties had agreed was false. Aleksys^court eirored by refusing to
equitably toll time under Holland.
In.denying the Perkins, supra, tolling claim, the lower court relied upon the patient history facts both Parties
had agreed were false, rather then the newly discovered patient history facts, both Parties had agreed were true
and had corrected that false State record. Denying the claim in part for this mistaken factual reason and in part
under the wrong diligence proof legal standard. As this Court has specifically considered and rejected the
contention, that an actual innocence defendant, must also establish his diligence in placing the innocence evidence
before the Court, Perkins, supra. Here, the lower court rejected this Court’s Perkins, id., standard and held Aleksys
had to prove diligence as well as innocence, (App. #3, p. 13, Ln. #22-23, "does not establish that he was unable
to discover this new evidence prior to 2019"). Doing so even though the court identified the correct legal standard,
but, then declined to apply it, (id.).
Therefore, Aleksys moves the Court to grant Certiorari for both of these Holland and Perkins factual
assessment and legal standard errors, for the reasons that follow.
34

1. Holland Standard Is Obviously Met:
Aleksys had asserted that he obviously qualified for equitable tolling under Holland, (id). As Ariz. Had
admitted in their party-opponent admission, then conceded in this case, that Aleksys* ground one denied court
access and Habeas Corpus Suspension Clause factual allegations were all true. Which his lower court accepted
as being true. Evidence supported factual allegations that due to 902, his claims legal basis and material facts
were 'previously unavailable' to him, that the policy forbid proper and timely habeas corpus filings, and that he
was denied notice of his claims legal basis, (App. #3, p. 8)(App. #6)(App. #7)(App. #10).
Since both Parties agreed and the lower courts accepted these facts as true. It would be obvious to any unbias
jurist, that this objective and accepted impediment factor, had qualified Aleksys for equitable tolling under the
standard, as 902 clearly "stood in the way" of timely filings. Factual allegations which were conceded
in light of Aleksys clear and convincing district court exhibits evidence.
Such as his Exh. A under oath fact witness declaration that ADOC had admitted that 902 was created
specifically to deny proper court access. His 902 Exh. B which showed all legal research and legal advice was
forbidden. His Exh. C paralegal's admission that she could not assist Aleksys with his mandatory legal court filing
duties. His Exh. D party-opponent admission from Ariz. that 902 hinders timely Habeas filings and that for this
reason, the Habeas courts should excuse untimely filings. As well as his family's Exh. E declarations that they
could not purchase the necessary legal research and legal advice tools Aleksys requested to access the Habeas
Corpus courts due to their financial hardships. (Dist. Ct. Doc. #2, Exh. A-E), (App. #6 , #7, #9-10, #12, #16 ).
Aleksys asserts that this uncontested and accepted evidence, was an obvious objective factor that clearly meets
this Court’sHoiland: supra, equitable tolling statutory discretion standard. Accordingly, Aleksys moves the Court
to accept Certiorari and remedy this plain error, by granting Hnllanrj equitable tolling relief.
2. Perkins Standard Is Obviously Met:
For Esrkins, supra, tolling purposes, Aleksys had attested under oath, that his 2011-2012, unsworn State record
facts regarding his substance use patient history, were false. Having been inadvertently fabricated by his lawyers,
psychiatrist, and probation officer. All of whom had falsely reported his legal substances use as unlawful
substance use. Due to their lack of training in the common everyday verbiage teenagers used to describe their
legal substance use, (aka ground 3-4)(App. #8, Exh. F)(App. #ll)(App. #6, p. 17-26 )(App. #10A, p. 8-9, App.
35

#10B, p.8-13).
Aleksys'expert KRH, found this linguistic substance naming confusion was consistent with Med. studies that
reported on it and with the other 5 witnesses he interviewed and had purchased this incense during the Aleksys'
2010-2011 time era, (App. #8, Exh. F, p. 3)(App. #6 , p. 17-26 )(App. #10A, p. 4-6, 8, #10B, p. 8-13).
Accordingly, it was the KRH opinion that Aleksys explanation for how his legal substance use patient history,
had been inadvertently reported upon by his lawyers, probation officer and defense psychiatrist, as illicit substance
use in their unsworn reports and sentencing memorandum. Was consistent with D.O. J. and medical studies which
reported upon this linguistic issue and the 5 witness interviews, KRH had conducted. Therefore, he found no
reason to doubt Aleksys reporting error confusion explanation, which Adz. and the lower court accepted as true,
(Dist. Ct. Doc. #2, Exh. F).
[, supra, and Rule 5(b), Rules 2254 Cases ("must address the allegations
in the petition"). When the states do not contest or otherwise call into question, a prisoners evidence supported
factual allegations. This equates to their admissions that the facts are true and cannot be ethically contested. In
other words, the case has no factual disputes or controversy for the Courts to resolve under their Art. Ill, U.S.
CONST, powers. (App. #6, p. 6-7 )(App. #10A , p. 2-3, #10B, p. 5, 10).
1, supra, and Rule 5, id, that the 2011-2012 State
records on Aleksys^substance use history, were inadvertently false and fabricated patient history records. KRH
amended his earlier Medicolegal investigative opinion with a better streamlined version which asserted that the
new evidence met both the Schlup, supra, procedural gateway standard for grounds 3-4, and the Herrera. supra,
freestanding substantive innocence standard. Causing Aleksys to supplement his ground four with a newly
developed Bsnm claim. (Dist. Ct. Doc. #19)(App. #8), as he advised the court he would do when he initially
filed ground four, (App. #13, p. 9).
These Rule 5, supra, admissions from Ariz. and the KRH investigative opinion, had caused a PARADIGM
shift in how the new evidence should be assessed. As the materiality of the new Aleksys patient history facts,
when combined with the new KRH trustworthy scientific evidence. Established a prima fascia case of both
E£lkin§/Herie£a, supra, procedural and substantive innocence, while making Ariz. liable for Aleksys involuntary
criminal conduct, (App. #8, Exh. F).
36

i

This accepted Scientific evidence proved that in 2010-2011, the Ariz. Dept, of Health allowed their retailers
to falsely advertise their incense products, as being "all organic", "natural", and "safe" to bum in small, enclosed
spaces such as a bedroom, (App. #8, Exh. F). That is, using the incense product as it was intended to be used, by
burning it indoors, was supposed to be safe.
When Ariz. knew this was not true, as their Retailers and incense Manufactures, were secretly spraying the
incense with new psychoactive substance (NFS) synthetic chemical cannabinoids. Which belong to a family of
chemicals that were known in 2010, to have high chemical addiction and homicidal psychosis characteristics
which could cause death. Yet, giving no notice or warnings of these secret synthetic chemical additives on their
product labels or advertisements, (id).
These chemical etiology traits were so dangerous to the public, that in 2010-2011, more than 25 different state
Health Departments took emergency measures to remove the products from the Retailers’ shelves or make them
unavailable to teenagers. However, a Retailer’s $2,500 investment in the NPS Cannabinoids, when secretly
sprayed onto the otherwise all organic incense product, would generate a $250,000 profit for the Retailers, (id).
Therefore, while the secretly sprayed on chemicals were extraordinarily dangerous for a child to inhale when
the incense was burned, and the chemical fumes released. Retailers had no qualms -—turning children into thenlegal drug addicts and repeat customers, in light of these huge profits which could be made off the addicted
children (id).
At this 2010-201 ltime era, the synthetic cannabinoids dangers were well known to both the medical
community and law enforcement. Lab tests had shown that breathing in the chemical fumes repeatedly would
cause addiction. While hard science proved that repetitive or heavy doses of the chemical fumes, would cause
not only addiction and potential overdoses, but a bizarre homicidal psychosis, KRH has appropriately labeled the
Hannibal Lector Behavior (HLB) psychosis. Due the chemicals characteristics of inducing homicidal and bizarre
flesh-eating urges upon an otherwise normal person. Who would think such acts to be normal law abiding
behavior when suffering from a chemically induced HLB psychosis, (id)(aka insanity)
Put another way, if a child is secretly exposed to repetitive or heavy doses of these NPS synthetic chemical
fumes, this will likely induce addiction and a HLB psychosis in the child. In other words, chemically induced
temporary insanity, which is recognized as such by the psychiatric community, and that abates once the chemicals
37

leave the child's system, (id).
Moreover, the incense was marketed primarily to teenage children such as Aleksys, who were the Retailers
largest customer base. With the secret chemical additives known addictive qualities, Retailers were assured repeat
child addict customers, who would always return to satisfy their addiction urges. Addiction urges that would
increase in severity over time, for those children who did not overdose, (id).
To assure the children did not learn of the dangerous and addictive synthetic NPS cannabinoid chemicals that
were being sprayed on the incense in secret. Retailers and Manufactures did not list the chemicals on their product
labels or otherwise warn or give any type of notice as to these known synthetic NPS chemical dangers. They did
however, post pharmacological dosage data for their all-organic products, to reduce the overdose incident rates
(id).
While the Ariz. Dept, of Health and their State Legislative Br. of Govt, knew of their Retailers false 'all naturaladvertising practices and the public dangers these secret HLB chemicals posed to their children. This Dept, and
the Legislators made the informed decision to protect their Retailers profits, rather than the health and safety of
their children. Deciding to provide the children with no warnings or notices that the legal incense products they
were buying, contained dangerous NPS chemicals.
By giving no notice of the fact that burning the incense in small, enclosed rooms as the product was meant to
be used, would cause addition, an HLB psychosis, and possibly death. Ariz. assured its Retailers huge profits
would be protected, as said notice would have caused most of the child customers like Aleksys to avoid the incense
dangerous chemicals, (id).
Unaware of these hidden dangers, Aleksys sworn, uncontested, and accepted statement, verified that he had
been an expert martial artist since his early childhood. That his martial arts discipline is interrelated with the
meditation arts. That Aleksys practiced meditation for a few hours every day. That to help facilitate that practice,
in 2010, he began purchasing legal incense and burning it as the product was intended to be used, in his small,
enclosed bedroom, while meditating. That the odor offended his roommates, so he moved his meditation practice
to his car. whereat he contmued to bum his legal incense while meditating. That this routine went on for a few
hours of every day for months, (App. #1 l)(Dist. Ct. Doc. #2, Exh. H).
That after months of inhaling the incense fumes as the product was intended to be used, Aleksys became
38

involuntarily addicted to the incense secret chemical fumes. That the legal product was marketed to teenage
Aleksys as an organic all natural product. That it came with no labels or warnings, that the product contained
synthetic NPS cannabinoid chemicals. That Aleksys had no warnings or notice from any other source, that the
falsely marketed product contained dangerous synthetic chemicals which could addict him and then chemically
induce a homicidal HLB psychosis. That in 2010 and 2011, Aleksys did not use social media and had no such
internet accounts. That the news media did not widely report upon these HLB dangers until 2012, (id).
That by late 2010, Aleksys addictive urges rapidly progressed in frequency and in severity, after months of
burning the incense. So much so, that inhaling the burning fumes would no longer satisfy his urges or cure his
headaches, so at this time he began directly smoking the incense to satisfy his addictive urges multiple times each
day. Moreover, while under the affects and influence of these secret chemical fumes, Aleksys began purchasing
and smoking the falsely advertised 'bath salts', product which the Ariz. Dept, of Health knew, could not be used
as a bath salt, (id).
This 2010-2011, bath salt product, like the incense, was secretly sprayed with synthetic NPS chemicals by the
Manufacturers and Retailers, who gave no notice or warnings of these chemical additives on their product labels.
While knowing their product was being sold ONLY so teenagers could bum and inhale it’s fumes, since it could
not be used as a bath salt. While the secret NPS synthetic chemicals sprayed on this product, did not belong to
the Cannabinoid family of chemicals and instead belonged to the synthetic Cathinones family of chemicals They
likewise had the very same addiction and HLB psychosis etiology traits, just as the cannabinoid chemicals did.
Etiological affects which were widely known throughout the medical and law enforcement communities, who had
to deal with those affects and lethal overdoses on a regular basis, (App. #8, Exh. F).
By the end of 2010 and early 2011, Aleksys became heavily and involuntarily addicted to both products’ secret
chemical additives. During the relevant crime dates, Aleksys was ONLY under the influence of these involuntarily
inhaled synthetic chemical fumes and no other substances. Contrary to his fabricated 2011-2012 State records
which had inadvertently errored by reporting otherwise, (id), (App. #11).
Pursuant to this evidence, Aleksys ground three asserted his lawyers and psychiatrist were ineffective for
failing to provide him with copies of their reports which had fabricated a false patient history. So those reports
and sentencing Memo, could be timely corrected and an innocence involuntary actions defense raised at a trial.
39

As Aleksys would not have waived his trial right or signed a plea, had he known of this involuntary actions
defense, Hill, supra, (App. #6, p. 17-27)(App. #10A, p. 4-6, App. #10B, p. 8-13).
While Aleksys ground four asserted that all of his criminal actions were involuntarily caused by the secret
chemical fumes he was unknowingly inhaling. Chemical fumes that involuntarily induced his HLB psychosis
which abated hours after his arrest and forced remission. As supported by his Medicolegal investigators expert
opinion, which KRH asserted under oath, represented the opinion of the mainstream scientific Majority, (App. #8
Exh. F). An opinion which Ariz. conceded was reliable and true, and that credibly supports both Perkins. supra,
tolling relief, and Herrera, supra, substantive innocence relief.
While both Ariz. and Aleksys were in agreement that the State record facts which reported upon Aleksys
substance use patient history. Were false record facts, which Aleksys sworn statement, (App. #11), had properly
corrected. His lower court errored by relying upon that false evidence to impeach the Medicolegal expert opinion
of KRH. Rather then relying upon Aleksys new corrected, Perkins, supra, patient history facts as it should have,
(id). Denying Aleksys request to toll time under Perkins, supra, on this false evidence ground.
Here, both Parties agree that the corrected facts in App. #11 are the true substance use facts in this case, and
that the 2011-2012 State record facts on this point are false. While both Parties further agree that the generally
accepted and "trustworthy", Schlup, supra, scientific evidence in App. #8, Exh. F, proves that Aleksys'criminal
actions were involuntarily induced by the legal chemicals he was unknowingly inhaling
Chemicals which caused a involuntary HLB psychosis, caused a temporary and chemically induced insanity
episode. Which abated once he went into a forced remission and the secret chemicals he had been unknowingly
inhaling were naturally purged from his system. Returning teenage Aleksys to his noraial law-abiding state of
mind. As psychiatric testing had shown that Aleksys was a perfectly normal and mentally healthy child, with a
loving family and no trauma in his past, (id).
Accordingly, Aleksys moves the Court to accept Cert, of his Perkins and Herrera substantive iinnocence issues.
Dated this ^

Day of k

Aleprfs Lomeii-Garcia
Petitioner and Next Friend
In Propria Persona
40

\VXlS-

